App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
RAMON CORTESLUNA,
Plaintiff-Appellant,
v.
MANUEL LEON; ROBERT KENSIC;
DANIEL RIVAS-VILLEGAS; CITY
OF UNION CITY, California,

No. 19-15105
D.C. No.
3:17-cv-05133-JSC
OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California
Jacqueline Scott Corley, Magistrate Judge, Presiding
Argued and Submitted April 29, 2020
San Francisco, California
Filed October 27, 2020
Before: Ronald Lee Gilman,* Susan P. Graber, and
Daniel P. Collins, Circuit Judges.
Opinion by Judge Graber;
Partial Concurrence and Partial Dissent by
Judge Gilman; Partial Concurrence and
Partial Dissent by Judge Collins

* The Honorable Ronald Lee Gilman, United States Circuit
Judge for the U.S. Court of Appeals for the Sixth Circuit, sitting
by designation.

App. 2
SUMMARY**
Civil Rights
The panel afﬁrmed in part and reversed in part
the district court’s summary judgment in favor of defendants, and remanded, in an action brought pursuant to 42 U.S.C. § 1983 and state law alleging that
police ofﬁcers used excessive force in effecting plaintiff ’s arrest.
The panel afﬁrmed the district court’s summary
judgment in favor of ofﬁcer Leon. The panel held that
even taking plaintiff ’s version of the facts as true, as
was required at this stage of the proceedings, a reasonable jury would not ﬁnd a Fourth Amendment violation
because Leon’s acts were objectively reasonable under
the circumstances. The panel ﬁrst determined that the
alleged crime was severe: a twelve-year-old girl told a
911 dispatcher that plaintiff had threatened his girlfriend and her daughters with a chainsaw. The panel
then determined that Ofﬁcer Leon faced an immediate
threat. The panel noted that plaintiff had a knife in
the left pocket of his pants and had lowered his hands
toward his thighs—and thus toward the knife—after
which Leon ﬁred a beanbag shotgun. Finally, the panel
determined that plaintiff ’s hands remained near the
knife in his pocket at the time of the second beanbag
shot.
** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

App. 3
The panel reversed the district court’s summary
judgment in favor of ofﬁcer Rivas-Villegas. The panel
ﬁrst held that there was a genuine issue of issue of fact
as to whether the force that Rivas-Villegas used when
he kneeled on plaintiff ’s back when he was lying face
down on the ground was excessive. The panel then determined that controlling precedent at the time put ofﬁcers on notice that kneeling on a prone and nonresisting person’s back so hard as to cause injury was
excessive.
The panel afﬁrmed the district court’s summary
judgment in favor of Sergeant Kensic, determining
that he lacked any realistic opportunity to intercede to
stop the excessive force. Finally, because the panel reversed the grant of summary judgment as to ofﬁcer Rivas-Villegas, it remanded to the district court for
consideration of the other elements of plaintiff ’s claim
against the City of Union City under Monell v. Department of Social Services, 436 U.S. 658 (1978). For the
same reason, the panel reinstated plaintiff ’s state-law
claims relating to Rivas-Villegas’ conduct.
Concurring in part and dissenting in part, Judge
Gilman fully concurred in the portions of the majority
opinion regarding the disposition as to Sergeant Kensic
and Ofﬁcer Rivas-Villegas. He respectfully dissented
from the portion afﬁrming the grant of summary judgment in favor of Ofﬁcer Manuel Leon, stating that he
had no doubt that a jury could reasonably ﬁnd in plaintiff ’s favor based on the facts that he has presented.

App. 4
Concurring in part and dissenting in part, Judge
Collins concurred in the majority opinion insofar as
it partially afﬁrmed the district court’s judgment dismissing plaintiff ’s claims of excessive force in connection with his arrest. However, he disagreed with the
majority’s reversal of the judgment in favor of Ofﬁcer
Rivas-Villegas and its partial reversal of the judgment
dismissing plaintiff ’s claims against the City. Judge
Collins would afﬁrm the judgment in its entirety.
COUNSEL
Audrey Smith (argued) and Robert G. Howie, Howie &
Smith LLP, San Mateo, California, for Plaintiff-Appellant.
Lori A. Sebransky (argued) and Kevin P. Allen, Allen
Glaessner Hazelwood & Werth LLP, San Francisco,
California, for Defendants-Appellees.
OPINION
GRABER, Circuit Judge:
Plaintiff Ramon Cortesluna appeals from the summary judgment entered in favor of Defendants Manuel
Leon, Daniel Rivas-Villegas, Robert Kensic, and the
City of Union City, California (“City”), in this action alleging that the individual Defendants used excessive
force in effecting Plaintiff ’s arrest. We afﬁrm in part,
reverse in part, and remand.

App. 5
I
FACTUAL AND PROCEDURAL BACKGROUND1
On the night of November 6, 2016, a 911 dispatcher received a call in which a 12-year-old girl, I.R.,
reported that she, her mother, and her 15-year-old sister were barricaded in a room at their home because
her mother’s boyfriend, Plaintiff, had a chainsaw and
was going to attack them. I.R. said that Plaintiff was
“always drinking,” had “anger issues,” was “really
mad,” and was using the chainsaw to “break something
in the house.” I.R. said that her mother was holding the
door closed to prevent Plaintiff from entering and hurting them. I.R.’s sister then took the phone and conﬁrmed that Plaintiff was “right outside the bedroom
door” and was “sawing on their door knob.” A manual
sawing sound was audible to the 911 operator. I.R.’s
sister described Plaintiff and his clothing.
A police dispatcher requested that ofﬁcers respond. The dispatcher reported that a 12-year-old girl
said that her mother’s boyfriend had a chainsaw and
was trying to hurt her, her sister, and her mother, who
were together in a room. The dispatcher also relayed
the girl’s statement that the boyfriend was “always
drinking” and was using the chainsaw to break something in the house. The dispatcher further reported
that there had been another potentially related 911

1

The underlying facts, except those regarding Plaintiff ’s
alleged injuries, are undisputed.

App. 6
call in the area and that, on that call, crying could be
heard, but the caller hung up without speaking.
Defendants Leon, Rivas-Villegas, and Kensic,
along with two other police ofﬁcers, responded to the
scene. When the ﬁrst three ofﬁcers, including RivasVillegas and Kensic, arrived, they observed Plaintiff ’s
home for several minutes and saw that “[Plaintiff ] is
right here” in his window and “doesn’t have anything
in his hand” except, at some points, a beer. The ofﬁcers
checked with dispatch to conﬁrm that the caller really
reported a chainsaw. The dispatcher acknowledged “we
can’t hear [a chainsaw] over the phone” but suggested
that Plaintiff could be using the chainsaw “manually.”
One ofﬁcer asked the 911 operator if the girl and her
family could leave the house. The operator replied that
they were unable to get out and that, during the call,
she heard sawing sounds in the background, as if the
boyfriend were trying to saw the bedroom door down.
Defendant Leon arrived at the scene later and
might have heard the radioed conversation with the
dispatcher. When Leon arrived, another ofﬁcer told
him, “so, he’s standing right here drinking a beer. What
do you think [about] just giving him commands, having
him come out, and do a protective sweep?” The ofﬁcers
formulated a plan to approach the house and “breach
it with less lethal, if we need to,” a reference to Leon’s
beanbag shotgun.2
2

A beanbag shotgun is a twelve-gauge shotgun loaded with
beanbag rounds, consisting of lead shot contained in a cloth sack.
Deorle v. Rutherford, 272 F.3d 1272, 1277 & n.8 (9th Cir. 2001).

App. 7
Rivas-Villegas knocked on the front door, stating,
“[P]olice department, come to the front door, Union
City police, come to the front door.” A few seconds later,
Plaintiff emerged through a sliding glass door near the
front door, holding a large metal object. Kensic said,
“He’s coming . . . he’s got a weapon in his hand” that
looks “like a crowbar.” Plaintiff was ordered to “drop it,”
which he did. Meanwhile, Leon said, “I’m going to hit
him with less lethal,” that is, his beanbag shotgun, and
told another ofﬁcer to get out of his way.
Rivas-Villegas then ordered Plaintiff to “come out,
put your hands up, walk out towards me.” Plaintiff put
his hands up, as Rivas-Villegas told Plaintiff to “keep
coming.”
As Plaintiff walked out of the house and toward
the ofﬁcers, Rivas-Villegas said, “Stop. Get on your
knees.” Plaintiff stopped approximately ten to eleven
feet from the ofﬁcers. Immediately after Rivas-Villegas’ order, Kensic saw a knife in the front left pocket of
Plaintiff ’s sweatpants, and he announced that Plaintiff had “a knife in his left pocket, knife in his pocket.”
Kensic then told Plaintiff, “[D]on’t, don’t put your
hands down” and “hands up.” After Kensic shouted this
last order, Plaintiff turned his head toward Kensic,
who was on Plaintiff ’s left side, (and away from Leon,
who was on Plaintiff ’s right side) and simultaneously
lowered his head and his hands. Leon immediately
shot Plaintiff with a beanbag round from his shotgun
By design, beanbag shotguns typically cause serious injury rather
than death, although death can result.

App. 8
and quickly ﬁred a second beanbag shot while Plaintiff ’s hands were still in a downward position near his
belly, where the first shot hit. The second shot hit
him on the hip. Roughly two seconds elapsed between
Kensic’s “hands up” order and the second shot.
After the second shot, Plaintiff again raised his
hands over his head. The ofﬁcers ordered him to “[G]et
down.” As Plaintiff was lowering himself to the ground,
Rivas-Villegas used his foot to push Plaintiff to the
ground. Rivas-Villegas then pressed his knee into
Plaintiff ’s back and pulled Plaintiff ’s arms behind his
back. Leon handcuffed Plaintiff ’s hands while RivasVillegas held his position. A few moments later, RivasVillegas lifted Plaintiff up by his handcuffed hands
and moved him away from the doorway. Other ofﬁcers
then entered the house, and the incident ended.
Plaintiff ﬁled a complaint asserting (a) a claim under 42 U.S.C. § 1983 against Leon and Rivas-Villegas
for excessive force; (b) a § 1983 claim against Kensic
for failing to intervene and stop the excessive force; (c)
a claim against the City under Monell v. Department of
Social Services, 436 U.S. 658 (1978), for the ofﬁcers’ actions; and (d) several state-law claims. Plaintiff claims
that he suffers physical, emotional, and economic injuries as a result of the ofﬁcers’ conduct.
The district court granted summary judgment to
the individual Defendants on the federal claims. As to
Leon and Rivas-Villegas, the court ruled both that the
force used was objectively reasonable in the circumstances and that they were entitled to qualiﬁed

App. 9
immunity. As to Kensic, the court ruled that he had no
reasonable opportunity to intervene and therefore
could not be liable. With summary judgment granted
in favor of the individual Defendants, the court dismissed Plaintiff ’s claim against the City. The court
then declined to exercise supplemental jurisdiction
over Plaintiff ’s state-law claims and dismissed them
without prejudice. This timely appeal followed.
II
STANDARD OF REVIEW
We review de novo the propriety of summary judgment. S.B. v. Cty. of San Diego, 864 F.3d 1010, 1013 (9th
Cir. 2017). Summary judgment is appropriate only if
there is “no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a); Blight v. City of Manteca, 944 F.3d
1061, 1065–66 (9th Cir. 2019).
We also review de novo the ruling that a police ofﬁcer is entitled to qualiﬁed immunity. S.B., 864 F.3d at
1013. If the parties’ versions of the facts differ, we use
the version most favorable to Plaintiff, the non-moving
party. Smith v. City of Hemet, 394 F.3d 689, 693 (9th
Cir. 2005) (en banc).

App. 10
III
DISCUSSION
A. Principles of Qualified Immunity
Qualiﬁed immunity protects individual ofﬁcers
“from liability for civil damages insofar as their conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Pearson v. Callahan, 555 U.S. 223,
231 (2009) (internal quotation marks omitted). In evaluating an assertion of qualiﬁed immunity, we undertake a two-part analysis, asking (1) “whether the facts
taken in the light most favorable to the plaintiff show
that the ofﬁcer’s conduct violated a constitutional
right,” and (2) whether that right was “clearly established at the time of the ofﬁcer’s actions, such that any
reasonably well-trained ofﬁcer would have known that
his conduct was unlawful.” Orn v. City of Tacoma, 949
F.3d 1167, 1174 (9th Cir. 2020).
At step one, we determine whether a reasonable
jury could conclude that an ofﬁcer’s use of force violated the Fourth Amendment by “balancing ‘the nature
and quality of the intrusion on the individual’s Fourth
Amendment interests against the importance of the
governmental interests alleged to justify the intrusion.’ ” Id. (quoting Tennessee v. Garner, 471 U.S. 1, 8
(1985)). That analysis incorporates many factors,3 but
3

Those factors include the relationship between the need for
the use of force and the amount of force used; the extent of the
plaintiff ’s injuries; any effort made by the ofﬁcer to temper or to
limit the amount of force; the threat reasonably perceived by the

App. 11
the most important factor is “whether the suspect
posed an immediate threat to the safety of the ofﬁcers
or others.” C.V. ex rel. Villegas v. City of Anaheim, 823
F.3d 1252, 1255 (9th Cir. 2016) (internal quotation
marks omitted). Although we take disputed facts in the
light most favorable to the plaintiff, we view the facts
from “the perspective of a reasonable ofﬁcer on the
scene, rather than with the 20/20 vision of hindsight.”
Graham v. Connor, 490 U.S. 386, 396 (1989). Because
of the factual disputes typical of excessive-force claims,
we have recognized that summary judgment at this
step “should be granted sparingly.” Smith, 394 F.3d at
701 (internal quotation marks omitted). Nonetheless,
summary judgment may be granted to an officer if,
“after resolving all factual disputes in favor of the
plaintiff,” the court concludes that the force used was
“objectively reasonable under the circumstances.”
Scott v. Henrich, 39 F.3d 912, 915 (9th Cir. 1994).
At step two, we determine whether the ofﬁcer’s
conduct violated “clearly established” law. Plumhoff v.
Rickard, 572 U.S. 765, 768 (2014). In doing so, we are
mindful of the Supreme Court’s repeated instruction
“not to define clearly established law at a high level
of generality.” Ashcroft v. al-Kidd, 563 U.S. 731, 742
(2011). Rather, we must decide “whether the violative
nature of particular conduct [was] clearly established.”
ofﬁcer; the severity of the plaintiff ’s crime; whether the plaintiff
posed an immediate threat to the safety of the ofﬁcers or others;
and whether the plaintiff actively resisted arrest or attempted to
ﬂee. Kingsley v. Hendrickson, 576 U.S. 389, 397 (2015); Orn, 949
F.3d at 1174.

App. 12
Id. That is, existing precedent must already have
placed the constitutional or statutory question beyond
debate. Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018)
(per curiam). We have interpreted those instructions to
mean that liability does not attach unless a case exists
in which a police ofﬁcer acting under similar circumstances was held to have violated the Fourth Amendment. Emmons v. City of Escondido, 921 F.3d 1172,
1174 (9th Cir. 2019) (per curiam).4
B. Officer Leon
Plaintiff asserts that Leon violated the Fourth
Amendment by shooting him twice with a beanbag
shotgun. Even taking Plaintiff ’s version of the facts as
true, as we must at this stage, a reasonable jury would
not ﬁnd a Fourth Amendment violation, because Leon’s
acts were objectively reasonable in the circumstances.
Therefore, we afﬁrm the district court’s grant of summary judgment to Leon.
The reasonableness of an ofﬁcer’s use of force “traditionally is a question of fact for the jury.” Scott, 39
F.3d at 915. Nevertheless, we may depart from that
traditional rule if any reasonable juror would ﬁnd that

4

An exception exists for “the rare `obvious case,’ where the
unlawfulness of the ofﬁcer’s conduct is sufﬁciently clear even
though existing precedent does not address similar circumstances.” District of Columbia v. Wesby, 138 S. Ct. 577, 590 (2018)
(quoting Brosseau v. Haugen, 543 U.S. 194, 199 (2004) (per curiam)). That exception does not apply here.

App. 13
the use of force was “objectively reasonable under the
circumstances.” Id.
As to the personal intrusion, because beanbag
rounds are “potentially lethal at thirty feet and could
be lethal at distances up to ﬁfty feet,” they are “not to
be deployed lightly.” Deorle, 272 F.3d at 1279–80. Their
use “is permissible only when a strong governmental
interest compels the employment of such force.” Id. at
1280. In assessing the governmental interest, we consider “(1) ‘whether the suspect poses an immediate
threat to the safety of the ofﬁcers or others,’ (2) ‘the severity of the crime at issue,’ and (3) ‘whether he is actively resisting arrest or attempting to evade arrest by
ﬂight.’ ” Glenn v. Washington Cty., 673 F.3d 864, 872
(9th Cir. 2011) (quoting Graham, 490 U.S. at 396)).
Here, ﬁrst, the alleged crime was severe: a twelveyear-old girl told a 911 dispatcher that Plaintiff had
threatened his girlfriend and her daughters with a
chainsaw. The threat was just as great even if Plaintiff
had been using the saw manually.
Leon faced an immediate threat, the second and
most important factor. C.V. ex rel. Villegas, 823 F.3d at
1255. Although Plaintiff did not have a chainsaw when
the ofﬁcers arrived, Plaintiff emerged from the house
holding a large metal object. Plaintiff dropped the object when ordered to do so, but he still had a knife in
the left pocket of his pants. Leon, who was standing
diagonally to Plaintiff ’s right, could not see the knife
from his position. Kensic announced that Plaintiff had
a knife and ordered Plaintiff to put his hands up.

App. 14
Plaintiff instead lowered his hands toward his
thighs—and thus toward the knife—after which Leon
ﬁred the beanbag shotgun.
The third factor pertains to Plaintiff ’s resistance.
Before the ﬁrst shot was ﬁred, Plaintiff put his hands
down, and closer to the knife in his pocket, after police
repeatedly told him to put his hands up. Plaintiff ’s
hands remained near the knife in his pocket at the
time of the second shot.
In summary, even viewing the facts in Plaintiff ’s
favor, the force that Leon applied was objectively reasonable in the circumstances, considering both the
level of intrusion and the strength of the government’s
interest. It bears repeating that our inquiry is an objective one. Despite our colleague’s suggestion, Judge
Gilman’s dissent at 22, we cannot consider that Leon
announced that he was “going to hit [Plaintiff ] with
less lethal” twenty seconds before pulling the trigger.
As the Supreme Court has repeatedly stressed, we
must assess ofﬁcers’ use of force “without regard to
their underlying intent.” Graham, 490 U.S. at 397. Accordingly, we afﬁrm the summary judgment entered in
favor of Leon.
C. Officer Rivas-Villegas
Plaintiff alleges that Rivas-Villegas violated his
Fourth Amendment right to be free from excessive
force by leaning too hard on his back, causing injury.
Taking Plaintiff ’s version of the facts as true, we agree.
Because we also hold that controlling precedent put

App. 15
ofﬁcers on notice that such force is excessive, RivasVillegas is not entitled to qualiﬁed immunity. We
therefore reverse and remand for a jury to decide
whether Rivas-Villegas used excessive force and, if so,
to assess damages.
1. Rivas-Villegas’ use of force was excessive.
Although we have held that Leon did not violate
Plaintiff ’s Fourth Amendment rights by using excessive force, the objective situation altered dramatically
after Leon shot Plaintiff twice with beanbag rounds.
By the time Rivas-Villegas put pressure on Plaintiff ’s
back, Plaintiff no longer posed a risk. He was lying face
down on the ground, experiencing visible pain from
having been shot by the two beanbag rounds, and not
resisting. Although the knife remained in Plaintiff ’s
pocket, Rivas-Villegas—unlike Leon—could have seen
that the knife was protruding blade-up such that it
would not have been possible for Plaintiff to grab it and
attack anyone. Thus, the governmental interest that
we must consider had decreased greatly from when
Leon ﬁred on Plaintiff.
And although a knee on the back is a lesser personal intrusion than beanbag rounds, it still constitutes a meaningful personal intrusion when it causes
injury. LaLonde v. County of Riverside, 204 F.3d 947,
952 (9th Cir. 2000). In evaluating reasonableness, we
may consider the presence and severity of a plaintiff ’s
injuries, but injuries are not required. Felarca v. Birgeneau, 891 F.3d 809, 817 (9th Cir. 2018). This court long

App. 16
ago recognized that a plaintiff asserting a claim of excessive force “is not required to show a signiﬁcant injury.” Wilks v. Reyes, 5 F.3d 412, 416 (9th Cir. 1993), as
amended on denial of reh’g (Oct. 28, 1993); see also
Morales v. Fry, 873 F.3d 817, 820–21 (9th Cir. 2017)
(discussing this circuit’s requirement under Floyd v.
Laws, 929 F.2d 1390, 1402–03 (9th Cir. 1991), that a
court award nominal damages where a jury ﬁnds for a
plaintiff on an excessive-force claim but awards no
damages). If the use of force is excessive and there is a
case on point that alerted the ofﬁcer to the unconstitutionality of his conduct (an issue to which we will turn
next), there is no added requirement for a speciﬁc level
of damage or injury. Here, Plaintiff alleges that he now
suffers ongoing neck and back pain, headaches, and
emotional distress on account of Rivas-Villegas’ actions. That is sufﬁcient to create a genuine dispute of
material fact that requires resolution by a jury. The
credibility and weight of Plaintiff ’s evidence are for the
jury, not us, to decide.5 Because we must view all the

5

Judge Collins’ dissent errs by “disregard[ing]” Rivas-Villegas’
brief use of his foot to press Plaintiff to the ground. Judge Collins’
Dissent at 28 n.2. The fact that Plaintiff did not feel the foot on
his back does not make the push irrelevant, because that fact does
not negate the possibility that the push contributed to Plaintiff ’s
alleged injuries. Once again, the signiﬁcance of the push is for the
jury, and not us, to decide. Nor is it particularly surprising that
Plaintiff did not feel a foot on his body after he had absorbed two
rounds from a beanbag shotgun. Cf. Buck v. City of Albuquerque,
549 F.3d 1269, 1289 (10th Cir. 2008) (“Because she was focused
on regaining control of her breathing, [the plaintiff ] does not recall feeling the impact of the pepper ball rounds on her body. . . .”).

App. 17
evidence in Plaintiff ’s favor, Rivas-Villegas used excessive force.
2. Rivas-Villegas violated clearly established
law.
At step two, Rivas-Villegas is not entitled to qualiﬁed immunity because existing precedent put him on
notice that his conduct constituted excessive force. In
LaLonde, an ofﬁcer grabbed the plaintiff, knocked him
to the ground, straddled him, and handcuffed him. 204
F.3d at 952. Allegedly, another ofﬁcer then “forcefully
put his knee into LaLonde’s back, causing him signiﬁcant pain” and a lingering back injury. Id. We reversed
the summary judgment entered in favor of the ofﬁcers
because the allegations, if true, “constitute[d] a clear
violation of [LaLonde’s] Fourth Amendment rights.” Id.
at 962.6
Judge Collins’ dissent asserts that the facts here
differ from those in LaLonde so much that a reasonable ofﬁcer would not have been put on notice that pushing his knee into the back of a prone, unresisting,
injured person violates the Fourth Amendment. Judge
Collins’ Dissent at 35–37. We disagree. Although the
ofﬁcers here responded to a more volatile situation
than did the ofﬁcers in LaLonde, the context was substantially similar. Indeed, rarely is a precedent as
6

Although LaLonde’s discussion of the test for qualiﬁed immunity may be outdated, it nonetheless establishes that certain
uses of force, including the use of force similar to that employed
in this case, violate the Fourth Amendment.

App. 18
precisely aligned with the relevant actions. Both
LaLonde and this case involve suspects who were lying
face-down on the ground and were not resisting either
physically or verbally, on whose back the defendant ofﬁcer leaned with a knee, causing allegedly signiﬁcant
injury.
In LaLonde, ofﬁcers responded to reported yelling
inside a residence. 204 F.3d at 950–51. And much like
here, the ofﬁcers were warned that the plaintiff possessed a deadly weapon—a riﬂe in that case. Id. at 951.
The ofﬁcers also were told that they “should be careful
because [the plaintiff ] might be willing to use [that
weapon].” Id. And much like here, the plaintiff at ﬁrst
declined to comply with police requests. Id. at 951–52.
The similarities increase at what Graham teaches
to be the most critical moment: when excessive force
was employed. 490 U.S. at 396. In LaLonde, an ofﬁcer
“forcefully put his knee into [the plaintiff ’s] back” after
the plaintiff had been sprayed with pepper spray and
had stopped resisting arrest. 204 F.3d at 952, 959 n.17.
Here, at the time in question, Plaintiff was prone, similarly was not resisting arrest, and similarly was visibly injured by a prior use of force. If anything, Plaintiff
was more subdued—and thus less of a threat—after
having been shot twice by a beanbag shotgun rather
than having been pepper-sprayed. As in LaLonde, Rivas-Villegas “deliberately dug his knee into [Plaintiff ’s] back” with enough force to cause injury.7 Id. at
7

Plaintiff ’s arrest was captured on videotape. The videotape
shows that Rivas-Villegas intentionally dug his knee into

App. 19
959 n.17. The court concluded in LaLonde that the ofﬁcers were not entitled to qualiﬁed immunity. Id. at
962. Ofﬁcers in Rivas-Villegas’ position were thus on
notice that their substantially similar conduct is unconstitutional.
Judge Collins’ dissent seems to argue that, because Plaintiff was accused of a serious crime and initially appeared noncompliant, police could use force
throughout the encounter without violating the Fourth
Amendment. Judge Collins’ Dissent at 29–30. But just
as circumstances can escalate rapidly, justifying “splitsecond judgments” to use force that might have been
excessive a moment earlier, Graham, 490 U.S. at 397,
circumstances can de-escalate rapidly. Logic thus dictates that the reverse is true, too: a use of force that
may have been reasonable moments earlier can become excessive moments later.
Defendants also argue that the method they used
to handcuff Plaintiff is a standard procedure, designed
to minimize injuries and confrontations. But the fact
that a particular practice is standard, or that it usually
results in no harm, does not insulate its use in every
case. For example, we have repeatedly held that “tight
handcufﬁng can constitute excessive force,” even
though handcufﬁng is a generally standard and appropriate practice. LaLonde, 204 F.3d at 960 (citing
Plaintiff ’s back. Although the videotape does not establish how
strenuously Rivas-Villegas dug his knee into Plaintiff ’s back, that
factual dispute is for the jury to consider. And the existence and
degree of any resultant injury are for the jury, as fact-ﬁnder, to
determine.

App. 20
Palmer v. Sanderson, 9 F.3d 1433 (9th Cir. 1993);
Hansen v. Black, 885 F.2d 642 (9th Cir. 1989)). And the
amount of force that may be reasonable when applied
to the back of a large, ﬁt individual to effect an arrest
may be excessive as applied to a small, frail individual.
The facts of each case matter.
For similar reasons, the dissent’s fear that our
holding likely will “eliminate the use of a knee to protectively hold down a non-resisting suspect while
handcufﬁng him,” Judge Collins’ Dissent at 36, is unwarranted. We hold only, as we have before, that police
may not kneel on a prone and non-resisting person’s
back so hard as to cause injury. LaLonde, 204 F.3d at
959. Just as our tight-handcuff cases have not eliminated handcuffs, our holding today should not infringe
on an ofﬁcer’s ability to secure a compliant and prone
suspect without injury.
We conclude that there is a genuine issue of fact
as to whether the force that Rivas-Villegas used was
excessive and that, if Plaintiff ’s allegations are true,
precedent informed Rivas-Villegas that the force was
excessive. We therefore reverse the judgment in favor
of Rivas-Villegas and remand for further proceedings.
D. Officer Kensic
Plaintiff asserts that Kensic failed to intervene to
prevent the excessive force employed by Leon and Rivas-Villegas. But there is no evidence that Kensic
knew what the other defendants would do, and the
events unfolded very rapidly—in a matter of seconds.

App. 21
Kensic therefore lacked any realistic opportunity to intercede. See Cunningham v. Gates, 229 F.3d 1271,
1289–90 (9th Cir. 2000) (holding that ofﬁcers can be
held liable for failing to intervene only if they had a
realistic opportunity to do so). We therefore afﬁrm the
judgment in favor of Kensic.
E. Monell and State-Law Claims
Plaintiff asserts that, under Monell, the City is liable for the ofﬁcers’ constitutional violations. The district court dismissed Plaintiff ’s Monell claim because
it had granted summary judgment to the individual
Defendants. Because we reverse the grant of summary
judgment as to Rivas-Villegas, we remand to the district court for consideration of the other elements of
Plaintiff ’s Monell claim and whether that claim “can
properly be resolved on summary judgment even if the
constitutional violation question cannot.” Glenn, 673
F.3d at 880. For the same reason, we reinstate Plaintiff ’s state-law claims relating to Rivas-Villegas’ conduct. See Wall v. Cty. of Orange, 364 F.3d 1107, 1112
(9th Cir. 2004) (reinstating state-law claims in similar
circumstances). On remand, the district court can reconsider whether to exercise jurisdiction over those
claims.
AFFIRMED as to the federal claims against Defendant Leon and Defendant Kensic; REVERSED and
REMANDED for further proceedings as to all other
claims. The parties shall bear their own costs on appeal.

App. 22
GILMAN, Circuit Judge, concurring in part and dissenting in part:
I fully concur in the portions of the majority opinion regarding the disposition as to Sergeant Robert
Kensic and Ofﬁcer Daniel Rivas-Villegas. On the other
hand, I respectfully dissent from the portion afﬁrming
the grant of summary judgment in favor of Officer
Manuel Leon. We are not being asked to decide
whether Cortesluna will prevail at trial on his excessive-force claim against this ofﬁcer. The question before us is simply whether a jury could reasonably ﬁnd
in Cortesluna’s favor based on the facts that he has
presented. I have no doubt that it could.
I
The key question for a jury to decide is whether a
reasonable ofﬁcer would have felt immediately threatened by Cortesluna at the time that Ofﬁcer Leon shot
Cortesluna with two rounds from the ofﬁcer’s beanbag
shotgun. See C.V. ex rel. Villegas v. City of Anaheim,
823 F.3d 1252, 1255 (9th Cir. 2016) (holding that the
most important question is “whether the suspect posed
an immediate threat to the safety of the ofﬁcers or others” (internal citation and quotation marks omitted)).
The two photos attached to this dissent clearly support
the proposition that Cortesluna posed no immediate
threat to any of the ofﬁcers present. In both photos,
which are exhibits from Cortesluna’s home-security
camera, Cortesluna is shown standing still with his
head and hands down. Photo 1 shows Ofﬁcer Leon

App. 23
ﬁring the ﬁrst beanbag round at Cortesluna from a distance of approximately 10 feet. Roughly a second later,
Photo 2 shows the second beanbag round being ﬁred.
Even with a knife shown protruding blade up in
Cortesluna’s left front pocket, there is no indication
that he was in the act of reaching for it when the
rounds were ﬁred. And with the knife blade up rather
than down, there was no way that he could have
quickly taken it from his pocket to threaten the ofﬁcers. This is especially so when one takes into account
that ﬁve police ofﬁcers were present, all with their guns
trained on Cortesluna. I frankly fail to see how anyone
looking at these photos would deduce that Cortesluna
was an immediate threat to any of the ofﬁcers under
the circumstances. A jury could instead easily ﬁnd that
Ofﬁcer Leon was a trigger-happy member of the police
force who literally “jumped the gun” in a display of excessive force. This is amply shown by Ofﬁcer Leon saying “I’m going to hit him with less lethal” (the beanbag
shotgun) even before Cortesluna had emerged from the
house. Maj. Op. at 7.
The majority, moreover, appears to acknowledge
the strength of Cortesluna’s claim against Ofﬁcer Leon
despite their unwillingness to let a jury decide the issue. In denying qualiﬁed immunity to Ofﬁcer RivasVillegas, for example, the majority acknowledges that
“the knife was protruding blade-up such that it would
not have been possible for Plaintiff to grab it and attack anyone.” Maj. Op. at 15. Yet Ofﬁcer Leon proceeded to shoot Cortesluna twice with the beanbag
rounds without making any effort whatsoever to

App. 24
ascertain that Cortesluna’s possession of the knife
posed no immediate threat.
The majority also recognizes the teaching of
Graham v. Connor, 490 U.S. 386, 396 (1989), that the
most critical moment is “when excessive force was employed.” Maj. Op. at 17. Yet Cortesluna was totally passive at the time he was shot, despite his earlier
aggressive actions as reported to the police dispatcher.
And even well before the shooting, when the ofﬁcers
ﬁrst saw Cortesluna, he was observed doing nothing
more that standing in the house “drinking a beer.” Maj.
Op. at 6.
Finally, the majority acknowledges the need to
consider the various factors set forth in Kingsley v.
Hendrickson, 576 U.S. 389, 397 (2015), when analyzing
an excessive-force claim, Maj. Op. at 10, n. 3, but fails
to give them appropriate weight. The application of
these factors—including the serious harm that can be
caused by a beanbag shotgun, the lack of any effort by
Ofﬁcer Leon to warn Cortesluna, and the absence of
any resistance or attempt to ﬂee by Cortesluna—all tilt
in his favor. In sum, I believe that there is more than
sufﬁcient evidence to raise a genuine dispute of material fact regarding the excessive-force claim against
Ofﬁcer Leon.
II
The use of excessive force by a police ofﬁcer, of
course, is in violation of the victim’s constitutional
rights. Gravelet-Blondin v. Shelton, 728 F.3d 1086,

App. 25
1090 (9th Cir. 2013). And whether the force used was
excessive is generally a question for the jury. Smith v.
City of Hemet, 394 F.3d 689, 701 (9th Cir. 2005) (en
banc). This brings us to the second issue of whether
Cortesluna’s right not to be shot was “clearly established at the time of [Ofﬁcer Leon’s] actions, such that
any reasonably well-trained ofﬁcer would have known
that his conduct was unlawful.” See Orn v. City of Tacoma, 949 F.3d 1167, 1174 (9th Cir. 2020).
Existing precedent does not require a prior case
with the exact same facts. Kisela v. Hughes, 138 S. Ct.
1148, 1152 (2018) (per curiam) (“[T]his Court’s caselaw
does not require a case directly on point for a right
to be clearly established[.]” (quoting White v. Pauly,
137 S. Ct. 548, 551 (2017))). The law instead requires
“[p]recedent involving similar facts.” See id. at 1153
(emphasis added). And here the existing precedent is
close enough to have put Ofﬁcer Leon on notice that
his actions constituted excessive force.
In Deorle v. Rutherford, 272 F.3d 1272 (9th Cir.
2001), for example, this court held that shooting a
beanbag round at an emotionally disturbed individual
who was walking directly towards an ofﬁcer was excessive. Id. at 1282. The court emphasized that its “conclusion [wa]s strongly supported by [the] failure to give
Deorle any warning that he would be shot if he approached any closer.” Id. So too here: Ofﬁcer Leon gave
Cortesluna no warning that he would be shot if he did
not put his hands up. And Deorle arguably presented
a greater threat to the ofﬁcers than did Cortesluna because Deorle had been “brandishing a hatchet at a

App. 26
police ofﬁcer,” “remained agitated and continued to
roam on or about the property,” and was carrying “an
unloaded plastic crossbow in one hand and what may
have been a can or a bottle of lighter ﬂuid in the other.”
Id. at 1276–77. Although Deorle dropped the hatchet
and crossbow when instructed to do so, he had been
walking directly towards the ofﬁcers when he was shot.
Id. The court in Deorle made clear that “[a] desire to
resolve quickly a potentially dangerous situation is not
the type of governmental interest that, standing alone,
justiﬁes the use of force that may cause serious injury.”
Id. at 1281.
Other precedent exists regarding the concept of
passive resistance. See Emmons v. City of Escondido,
921 F.3d 1172, 1175 (9th Cir. 2019) (“The right to be
free from the application of non-trivial force for engaging in mere passive resistance was clearly established
prior to 2008.” (quoting Gravelet-Blondin, 728 F.3d at
1093)). In Gravelet-Blondin, the police tased a suspect
who refused requests to show his hands. 728 F.3d at
1089. Although the police had been warned that the
suspect “owned a gun and would have it with him,” id.,
this court nonetheless concluded that “Blondin engaged in no behavior that could have been perceived
. . . as threatening or resisting,” id. at 1094. His refusal
to obey commands instead constituted “mere passive
resistance,” id. 1093, and, “[a]s a result, the use of nontrivial force of any kind was unreasonable,” id. at 1094.
So even if Cortesluna was disobeying Sergeant
Kensic’s instruction to put his hands up (probably because Cortesluna was understandably confused by

App. 27
Ofﬁcer Leon’s immediately preceding instruction to get
down on the ground), a jury could ﬁnd that this was at
most passive resistance. The attached photos support
such a ﬁnding, where Cortesluna is shown standing
still, head down, and approximately 10 feet away from
the ﬁve assembled ofﬁcers when the ﬁrst beanbag
round was ﬁred. See Photo 1.
Ofﬁcer Leon’s ﬁring of the second round (Photo 2)
strikes me as even less justiﬁed. At that point Cortesluna’s hands are moving away from his sides and
thus further from the knife in his left front pocket. In
my opinion, this evidence is more than sufﬁcient to
place this case in the category acknowledged by the
majority as an obvious case “where the unlawfulness
of the ofﬁcer’s conduct is sufﬁciently clear even though
existing precedent does not address similar circumstances.” Maj. Op. 12, n. 4 (quoting District of Columbia
v. Wesby, 138 S. Ct. 577, 590 (2018)).
For all of the above reasons, I would reverse the
grant of summary judgment in favor of Ofﬁcer Leon
and remand the case for further proceedings as to all
of the defendants other than Sergeant Kensic.

App. 28
APPENDIX

Photo 1

Photo 2

App. 29
COLLINS, Circuit Judge, concurring in part and dissenting in part:
I concur in the majority opinion insofar as it partially afﬁrms the district court’s judgment dismissing
Ramon Cortesluna’s claims of excessive force in connection with his arrest. However, I disagree with the
majority’s reversal of the judgment in favor of Ofﬁcer
Daniel Rivas-Villegas and its partial reversal of the
judgment dismissing Cortesluna’s claims against the
City of Union City. I would afﬁrm the judgment in its
entirety, and I therefore respectfully dissent from sections III(C) and III(E) of the majority’s opinion.
I
The arrest in this case was videotaped by Cortesluna’s home-security camera. Where, as here,
“[t]here are no allegations or indications that this videotape was doctored or altered in any way, nor any contention that what it depicts differs from what actually
happened,” we should review the summary judgment
order by “view[ing] the facts in the light depicted by
the videotape.” Scott v. Harris, 550 U.S. 372, 378, 380–
81 (2007).1 That videotape shows that, after being hit
by the beanbag rounds, Cortesluna turned and began
to lie face-down on the ground. As Cortesluna was doing so, Rivas-Villegas approached and brieﬂy placed
1

At my request, the Clerk of the Court has posted the
videotape on the Court’s public website at this link:
https://cdn.ca9.uscourts.gov/datastore/opinions/media/19-15105Cortesluna-Videotape.mp4.

App. 30
his foot on Cortesluna’s back in order to more quickly
get him to lie ﬂat on the ground.2 Rivas-Villegas then
straddled Cortesluna, with his right foot on Cortesluna’s right side and his left leg bent at the knee on
Cortesluna’s left side, where Cortesluna had a knife in
his pocket. Both Rivas-Villegas and Cortesluna testified that the knee was on Cortesluna’s back; RivasVillegas said that he did that in order to prevent Cortesluna from trying to get back up while he was being
handcuffed. In that limited sense, it can perhaps be
said, as the majority tendentiously puts it, that RivasVillegas’s holding Cortesluna down with his knee
amounted to having “dug his knee into Plaintiff ’s
back.” See Maj. Opin. at 18 n.7. But the videotape also
conﬁrms that, to the extent that Rivas-Villegas placed
his knee on Cortesluna’s back, Rivas-Villegas did not
jump on his back or otherwise “drop” his knee into his
back. Rivas-Villegas was in this position for no more
than eight seconds before standing up, at which time
another ofﬁcer handcuffed Cortesluna’s hands.

2

For excessive force purposes, we may disregard this brief
placement of Rivas-Villegas’s foot, because Cortesluna testiﬁed at
his deposition that he did not even recall feeling the ofﬁcer’s foot,
but only his knee. The majority contends that there is a triable
issue as to whether “the push contributed to Plaintiff ’s alleged
injuries,” see Maj. Opin. at 16 n.5, but that misses the point. The
push is only relevant if it constituted excessive force in violation
of constitutional standards, and a push that was so minor that
Cortesluna does not even recall feeling it cannot reasonably be
viewed as “excessive.” See Eastman Kodak Co. v. Image Tech.
Servs., Inc., 504 U.S. 451, 468 (1992) (“the nonmoving party’s inferences [must] be reasonable in order to reach the jury”).

App. 31
Having viewed this videotape multiple times, I do
not think that the force Rivas-Villegas used could reasonably be described as excessive. But even if I did, I
think it is clear that Rivas-Villegas would be entitled
to qualiﬁed immunity.
A
The test for determining the reasonableness of the
force used to effectuate an arrest “requires careful attention to the facts and circumstances of each particular case, including the severity of the crime at issue,
whether the suspect poses an immediate threat to the
safety of the ofﬁcers or others, and whether he is actively resisting arrest or attempting to evade arrest by
ﬂight.” Graham v. Connor, 490 U.S. 386, 396 (1989).
The obvious severity of the suspected crime in this case
weighs in favor of afﬁrmatively using protective force
in arresting Cortesluna, but the majority concludes
that the circumstances concerning the other two principal Graham factors “altered dramatically” in the
mere eight seconds after Cortesluna was shot with the
beanbag rounds. See Maj. Opin. at 14. I disagree.
The suggestion that Cortesluna suddenly “no
longer posed a risk” at the moment the beanbag shots
were ﬁred, see Maj. Opin. at 14–15, is factually unreasonable. Cortesluna was carrying a pick tool when he
ﬁrst approached the ofﬁcers and, after putting that
down, he disobeyed the ofﬁcers’ instructions to keep
his hands up and instead lowered his hands to where
a long knife was protruding from his pocket. See id. at

App. 32
7–8. After being shot with the beanbag rounds and
starting to get on the ground, Cortesluna still had the
knife in his left pocket—i.e., on the side where RivasVillegas placed his knee. Using a knee on that side to
ensure that Cortesluna stayed down and did not make
a motion toward the knife was eminently reasonable in
light of what the ofﬁcers knew about the situation.
Kingsley v. Hendrickson, 576 U.S. 389, 399 (2015) (“we
have stressed that a court must judge the reasonableness of the force used from the perspective and with
the knowledge of the defendant ofﬁcer”). The majority
erroneously discounts the threat presented by the
knife, asserting that, because it was “protruding bladeup” in Cortesluna’s pocket, “it would not have been possible for Plaintiff to grab it and attack anyone.” See
Maj. Opin. at 15. The majority overlooks the fact that,
as the videotape makes clear, the knife was loosely sitting in the large pocket of Cortesluna’s baggy pajama
bottoms—meaning that Cortesluna could have ﬁt his
hand into the pocket to reach the handle.
The majority’s reasoning is also legally ﬂawed, because it ignores the Supreme Court’s pointed admonition to this court not to conﬁdently downplay, from the
comfort of our chambers, the dangers that ofﬁcers face
in making arrests:
[T]he panel majority did not heed the District
Court’s wise admonition that judges should
be cautious about second-guessing a police
officer’s assessment, made on the scene, of
the danger presented by a particular situation. With the beneﬁt of hindsight and calm

App. 33
deliberation, the panel majority concluded
that it was unreasonable for [the ofﬁcers] to
fear that violence was imminent. But we
have instructed that reasonableness “must be
judged from the perspective of a reasonable
ofﬁcer on the scene, rather than with the
20/20 vision of hindsight” and that “[t]he calculus of reasonableness must embody allowance for the fact that police ofﬁcers are often
forced to make split-second judgments—in
circumstances that are tense, uncertain, and
rapidly evolving.”
Ryburn v. Huff, 565 U.S. 469, 477 (2012) (citation omitted). And for the same reason, the majority improperly
discounts the need for precautionary measures (such
as holding the suspect down during handcufﬁng) in order to address the risk that a suspect who is not then
actively resisting may decide to start resisting before
the handcuffs are actually placed on him. It is quite
wrong for the “panel majority—far removed from the
scene and with the opportunity to dissect the elements
of the situation—conﬁdently [to] conclude[ ] that the
ofﬁcers really had no reason to fear for their safety or
that of anyone else.” Id. at 475.
The majority also relies on the fact that Cortesluna claims to be experiencing ongoing pain as a result of Rivas-Villegas’s eight-second use of his knee to
hold Cortesluna down during his arrest. See Maj. Opin.
at 15. I agree that, on summary judgment, we have to
take as true Cortesluna’s statements that he has experienced ongoing pain in his back and neck ever since
his arrest, but I disagree with the suggestion that, on

App. 34
this record, that contention is sufﬁcient to raise a reasonable inference of excessive force.
Although “injuries are not a precondition” to an excessive force claim, we have sensibly recognized that
the extent and nature of any injuries that do or do not
result from a given use of force may reveal something
about the extent of the force used. Felarca v. Birgeneau,
891 F.3d 809, 817 (9th Cir. 2018). For example, where
the force used produced “a broken vertebra which
caused [the arrestee] both pain and immobility,” a reasonable trier of fact could conclude that the force used
was “severe.” Santis v. Gates, 287 F.3d 846, 853–54 (9th
Cir. 2002). Conversely, “[w]e may infer from the minor
nature of a plaintiff ’s injuries that the force applied
was minimal.” Felarca, 891 F.3d at 817. However, we
must always keep in mind that, because the excessive
force inquiry turns on what the ofﬁcer knew at the
time, see Kingsley, 576 U.S. at 399, any later-occurring
claimed injuries are only relevant to the extent that
their severity suggests an objective level of force that
a reasonable ofﬁcer on the scene would have recognized at the time to be signiﬁcant and potentially injurious. Under these standards, Cortesluna’s claim of
subjective pain is not enough to defeat summary judgment.
Here, the videotape conﬁrms that nothing about
Rivas-Villegas’s brief use of his knee involved an objective level of force that was likely to produce serious
injury. And in contrast to Santos, Cortesluna has not
submitted any evidence in opposition to summary
judgment (such as medical records) that would show

App. 35
that the claimed subjective pain has its origin in an
underlying physical injury of a type that would support an inference that the force that produced it was
excessive.3 See Arpin v. Santa Clara Valley Transp.
Agency, 261 F.3d 912, 922 (9th Cir. 2001) (afﬁrming
summary judgment on excessive force claim and noting that “Arpin’s claim of injury is equally unsupported
as she does not provide any medical records to support
her claim that she suffered injury as a result of being
handcuffed”); see also Foster v. Metropolitan Airports
Comm’n, 914 F.2d 1076, 1082 (8th Cir. 1990) (arrestee’s
claims that “he has suffered nerve damage in his arms
as a result of being in handcuffs” and experiences
“pain” as a consequence were insufﬁcient to defeat
summary judgment on excessive force claim where arrestee “presents no medical records indicating he suffered any long-term injury as a result of the
handcuffs”). On this record, and given these objective
circumstances, the mere fact that Cortesluna subsequently claimed ongoing subjective pain is not enough,
by itself, to raise a reasonable inference that an objectively unreasonable level of force was used at the time
of the arrest. But under the majority’s opinion, it is
now apparently the law in the Ninth Circuit that all
an arrestee has to do to get a jury trial on an excessive
3

In connection with their reply in support of their summary
judgment motion, Defendants submitted summaries of the medical testimony that Plaintiffs expected to present at a trial, and
those summaries focus largely on hip and leg injuries from the
incident—i.e., injuries attributable to the bean-bag shots. In all
events, those summaries do not speciﬁcally tie any injury to the
knee-press.

App. 36
force claim—including defeating qualiﬁed immunity—
is to assert that the arrest resulted in ongoing subjective pain. For the reasons I have explained, that is not
correct.
I would hold that, even construing the record evidence in the light most favorable to Cortesluna, no reasonable jury could ﬁnd that Rivas-Villegas used
excessive force.4
B
Alternatively, I conclude that, at a minimum, RivasVillegas’s actions did not violate clearly established
law and that he therefore is entitled to qualiﬁed immunity. See Pearson v. Callahan, 555 U.S. 223, 236
(2009). The majority errs in holding otherwise.
4

The majority properly does not rely on Cortesluna’s further
claim that Rivas-Villegas should not have lifted him from the
ground by grabbing his handcuffs. As the district court noted,
Cortesluna does not claim that his “handcufﬁng and movement”
caused any injury, see Cortesluna v. Leon, 2018 WL 6727824, at
*11 (N.D. Cal. Dec. 21, 2018), and on this record, no reasonable
jury could ﬁnd that this method of lifting Cortesluna amounted to
excessive force. The only federal case Cortesluna cites to support
his argument on this score is Wall v. County of Orange, 364 F.3d
1107 (9th Cir. 2004). But in Wall, the arresting ofﬁcer suddenly
twisted the arm of a compliant, unarmed arrestee, slammed him
face-ﬁrst into a nearby vehicle, put “extremely tight” handcuffs on
him, and then threw him by his handcuffed arms head-ﬁrst into
a patrol car. Id. at 1109–10, 1112. Of course, nothing similar is
involved here. Moreover, in Wall, our ﬁnding of excessive force
rested on the ofﬁcer’s overly tight handcufﬁng, and not on the ofﬁcer’s movement of the suspect by his handcuffs or handcuffed
hands. See id. at 1112.

App. 37
Ofﬁcers are entitled to qualiﬁed immunity in
§ 1983 actions unless they violate “clearly established”
rights. Reichle v. Howards, 566 U.S. 658, 664 (2012).
“ ‘Clearly established’ means that, at the time of the ofﬁcer’s conduct, the law was sufﬁciently clear that every
reasonable ofﬁcial would understand that what he is
doing is unlawful.” District of Columbia v. Wesby, 138
S. Ct. 577, 589 (2018) (emphasis added) (citations and
internal quotation marks omitted). Moreover, in explaining how to determine whether the law was sufﬁciently clear for purposes of qualiﬁed immunity, the
Supreme Court has “repeatedly told courts—and the
Ninth Circuit in particular—not to deﬁne clearly established law at a high level of generality.” Kisela v.
Hughes, 138 S. Ct. 1148, 1152 (2018) (citations and internal quotation marks omitted); see also City of Escondido v. Emmons, 139 S. Ct. 500, 503 (2019); City &
County of San Francisco v. Sheehan, 575 U.S. 600, 613
(2015); Ashcroft v. al-Kidd, 563 U.S. 731, 742 (2011).
This obligation to deﬁne clearly established law with
speciﬁcity “is particularly important in excessive force
cases.” Emmons, 139 S. Ct. at 503. As the Supreme
Court has explained:
“Speciﬁcity is especially important in the
Fourth Amendment context, where the Court
has recognized that it is sometimes difﬁcult
for an ofﬁcer to determine how the relevant
legal doctrine, here excessive force, will apply
to the factual situation the ofﬁcer confronts.
Use of excessive force is an area of the law in
which the result depends very much on the
facts of each case, and thus police ofﬁcers are

App. 38
entitled to qualiﬁed immunity unless existing
precedent squarely governs the speciﬁc facts
at issue.”
Emmons, 139 S. Ct. at 503 (emphasis added) (quoting
Kisela, 138 S. Ct. at 1153).
In concluding that “existing precedent squarely
governs the speciﬁc facts” of this case, see id., the majority relies solely on our decision in LaLonde v. County
of Riverside, 204 F.3d 947 (9th Cir. 2000). See Maj.
Opin. at 16–18. In my view, the facts of LaLonde are
materially distinguishable from this case and are
therefore insufﬁcient to have made clear to “every reasonable” ofﬁcer that the force Rivas-Villegas used here
was excessive. Wesby, 138 S. Ct. at 589.
In LaLonde, while responding to a noise complaint, a police ofﬁcer ﬁrst tried to pin down an unarmed LaLonde and then sprayed him in the face with
pepper spray. 204 F.3d at 952. After that, a different
ofﬁcer, while handcufﬁng LaLonde, “deliberately dug
his knee into LaLonde’s back with a force that caused
him long-term if not permanent back injury.” Id. at
952, 959 n.17; see also id. at 952. The only material
similarities between LaLonde and this case are that
Rivas-Villegas brieﬂy pressed his knee into Cortesluna’s back while securing his arms for handcufﬁng;
Cortesluna was not then actively resisting; and Cortesluna claims that the press of Rivas-Villegas’s knee
has caused him continuing pain. The majority ﬁnds
those commonalities to be dispositive, see Maj. Opin. at

App. 39
17–18, but in doing so, it ignores several critical differences between LaLonde and this case.
In LaLonde, the ofﬁcers were responding merely
to a neighbor’s complaint that LaLonde was making
too much noise in his apartment, see 204 F.3d at 950–
51, whereas Rivas-Villegas and his colleagues were responding to an alleged incident of domestic violence
that, according to the police dispatch he heard, reportedly included the suspect’s manual use of a chainsaw
to break something in the house. And LaLonde was unarmed, see 204 F.3d at 951, whereas Cortesluna was
carrying a pick tool when he ﬁrst approached the ofﬁcers and, after putting that down, he still had a long
knife protruding from his left pocket (i.e., on the side
where Rivas-Villegas placed his knee). There is a very
signiﬁcant difference between using a knee to hold
down a person who is suspected of a serious violent
crime who is armed with a knife (as in this case) and
using a knee to hold down a noisy neighbor armed with
nothing more than a sandwich (as in LaLonde). See id.
at 951–52 (noting that LaLonde was “holding a sandwich in his hand” and that, when the ofﬁcer ﬁrst
grabbed LaLonde, he “knocked the sandwich to the
ﬂoor”).
By ignoring the multiple critical differences between this case and LaLonde, the majority thereby improperly deﬁnes the legal rule established in LaLonde
at too high a level of generality. See Kisela, 138 S. Ct.
at 1152. Indeed, the practical effect of the majority’s
ruling today will likely be to eliminate the use of a knee
to protectively hold down a non-resisting suspect while

App. 40
handcufﬁng him. The majority discounts that possibility, claiming that it has merely reafﬁrmed that “police
may not kneel on a prone and non-resisting person’s
back so hard as to cause injury.” See Maj. Opin. at 19
(emphasis added). But this disregards the fact that an
ofﬁcer on the scene cannot know whether the arrestee
will later claim ongoing subjective pain; the ofﬁcer can
only know what his or her objective actions are and
what the arrestee’s contemporaneous response is.
Here, the ofﬁcers’ body-cameras’ audiotapes conﬁrm
that, from the moment he was shot with the beanbags,
Cortesluna moaned in pain during his arrest and that
Cortesluna did not say at the time that the knee was
hurting him. On this record, there was nothing about
the then-knowable circumstances that would suggest
to the ofﬁcer that the force here was excessive. Under
the majority’s opinion—in which a later claim of ongoing subjective pain from the use of a knee is all you
need to get to a jury—an ofﬁcer would be taking a signiﬁcant risk by using a knee to secure an arrestee during handcufﬁng. The majority discounts this concern,
noting that our “tight-handcuff cases” have not “eliminated handcuffs.” See Maj. Opin. at 19. But our tighthandcuff cases have not done so presumably because
(unlike today’s ﬂawed ruling) those cases have not allowed arrestees to defeat summary judgment on an
excessive force claim merely by claiming ongoing subjective pain. See, e.g., Arpin, 261 F.3d at 921–22; Peterson v. Union Pac. R.R. Co., 480 F. App’x 874, 874 (9th
Cir. 2013); see supra at 31–33.

App. 41
Once again, a panel of this court disregards the
Supreme Court’s repeated admonition that, in the excessive force context, “police ofﬁcers are entitled to
qualiﬁed immunity unless existing precedent ‘squarely
governs’ the speciﬁc facts at issue.” Kisela, 138 S. Ct. at
1153 (citation omitted). Because neither LaLonde nor
any other existing precedent governs the speciﬁc facts
presented here, Rivas-Villegas is entitled to qualiﬁed
immunity.
II
Finally, the majority reinstates Cortesluna’s statelaw claims and his claims under Monell v. Department
of Social Services, 436 U.S. 658 (1978), insofar as they
relate to Rivas-Villegas’s conduct. See Maj. Opin. at 20.
Given that I conclude that Rivas-Villegas did not use
excessive force, there is no predicate for Monell liability against the City. And because I would thus afﬁrm
the district court’s judgment with respect to all of the
§ 1983 claims, there is in my view no basis for reversing the district court’s dismissal of the pendent statelaw claims without prejudice.
Accordingly, I would afﬁrm the judgment of the
district court in its entirety. I respectfully dissent from
the majority’s decision to the extent that it fails to do
so.

App. 42
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
RAMON CORTESLUNA,
Plaintiff,
v.
MANUEL LEON, et al.,
Defendants.

Case No.
17-cv-05133-JSC
ORDER RE: DEFENDANTS’ MOTION
FOR SUMMARY
JUDGMENT
Re: Dkt. No. 47
(Filed Dec. 21, 2018)

Plaintiff Ramon Cortesluna brings this civil rights
action against the City of Union City and three Union
City Police Ofﬁcers alleging violation of state and federal law in connection with an incident at his home on
November 6, 2016. Defendants’ motion for summary
judgment is now pending before the Court.1 (Dkt. No.
47.) Having considered the parties’ briefs and having
had the beneﬁt of oral argument on December 20,
2018, the Court GRANTS Defendants’ motion for summary judgment on the federal claims and dismisses the
state law claims pursuant to United Mine Workers v.
Gibbs, 383 U.S. 715, 726 (1966).

1

All parties have consented to the jurisdiction of a magistrate judge pursuant to 28 U.S.C. § 636(c). (Dkt. Nos. 4, 14.)

App. 43
SUMMARY JUDGMENT EVIDENCE
A. Undisputed Facts
On November 6, 2016, 12-year old Isabelle Ramos
called 911 to report that she, her mother, and her 15year old sister were in a room at 34877 Starling Drive
and she was worried that their mother’s boyfriend, Ramon Cortesluna, was going to hurt them.2 (Dkt. No. 411 (Ex. A, 911 audio); Dkt. No. 41-1 (Ex. B, Dispatch audio).3) Dispatch requested a unit to respond to ascertain the problem and advised that the reporting party,
a 12-year-old girl, was crying saying that her mom’s
boyfriend was trying to hurt them and that he had a
chainsaw. (Dkt. No. 41-1, Ex. B.) Dispatch advised that
the reporting party was in a room with her mom and
15-year-old sister and that the mom was holding the
door so the boyfriend would not open it. (Id.) Dispatch
reported that there had been another crying hang-up
911 call in the area that might be related. (Id.) The reporting party advised that the boyfriend was “using a
chainsaw to break something in the house” and the dispatcher reported that the 911 operator stated that she
could hear sawing in the background, but that it had
stopped. (Id.) The reporting party stated that the boyfriend was always drinking. (Id.)
2

Isabelle Ramos identiﬁes the individual as Ramon Cortez.
Because there is no dispute that the individual Isabel was referring to is the plaintiff Ramon Cortesluna, the Court refers to him
by the name under which he ﬁled this action.
3
Record citations are to material in the Electronic Case File
(“ECF”); pinpoint citations are to the ECF-generated page numbers at the top of the documents.

App. 44
City of Union City Police Ofﬁcers Leon, Rivas-Villegas, and Bellotti heard the broadcast as did Lieutenant Graetz and Sergeant Kensic. (Dkt. No. 41-2 (Leon
Depo.) at 26:13-27:4; Dkt. No. 41-3 (Rivas-Villegas
Depo.4) at 18:13-15, 21:14-20; Dkt. No. 41-4 (Bellotti
Depo.) at 13:19-14:15); Dkt. No. 41-5 (Graetz Depo) at
20:2-4; Dkt. No. 41-6 (Kensic Depo.) at 22:18-21, 24:414.) They all responded to the scene. (Dkt. No. 41-2
(Leon Depo.) at 32:1-6; Dkt. No. 41-3 (Rivas-Villegas
Depo) at 18:18:18-19 [sic]; Dkt. No. 41-4 (Bellotti
Depo.) at 16:11-16); Dkt. No. 41-5 (Graetz Depo) at
20:5-17; Dkt. No. 41-6 (Kensic Depo.) at 24:21-25:12.)
Lieutenant Graetz, Ofﬁcer Bellotti, and Ofﬁcer RivasVillegas all arrived at the same time (Dkt. No. 41-3 (Rivas-Villegas Depo) at 18:24-19:1.)
Lieutenant Graetz asked dispatch if the reporting
party and her family could exit the house and dispatch
responded that they “were unable to get out” and that
the 911 “call taker could hear sawing in the background, sounds like the male is trying to saw the door
down.” (Dkt. No. 41-1, Ex. B.) Dispatch conﬁrmed that
they were in a bedroom in the rear of the house. (Id.)
Dispatch reported they were trying to conﬁrm whether
it was a chainsaw or a normal manual saw. (Id.) Dispatch advised that the reporting party told the call
4

The cover page for Exhibit D states that it is the August 13,
2018 deposition of Manuel David Leon and this same header appears at the top of each page of the exhibit. However, the Allen
Declaration, to which Exhibit D is attached, states that Exhibit D
is the deposition of Daniel Rivas-Villegas and in fact the substance of the transcript reflects that it [sic] the deposition of
Daniel Rivas-Villegas notwithstanding the heading to the contrary.

App. 45
taker that it was a chainsaw, but that the call taker
could not hear it and “he might be using it manually
on the door.” (Id.) Ofﬁcer Rivas-Villegas asked Dispatch if the caller was using a landline or cell phone
because he was concerned that it was a “swatting call.”
(Dkt. No. 39.) Dispatch conﬁrmed that it was a cell
phone. (Dkt. No. 41-1, Ex. B.) Dispatch advised that the
only people in the house were the reporting party, her
sister, her mother, and the boyfriend. (Id.) Dispatch
provided the following description of the boyfriend: Ramon Cortseluna, Hispanic, 5'7", with a skinny build,
wearing red sweatpants. (Id.) Dispatch also noted that
Mr. Cortesluna was “1026” and “clear in AFS.”5 (Dkt.
No. 54-4.)
Around this same time, one of the ofﬁcers can be
heard on Ofﬁcer Rivas-Villegas’s body camera saying
that he had visual on a man in red sweatpants with a
beer in his hand—later to be identiﬁed as Mr. Cortesluna. (Dkt. No. 39; Dkt. No. 48.) Ofﬁcer Rivas-Villegas conﬁrmed with other ofﬁcers that they could not
hear any sounds coming from the residence. (Id.) Another ofﬁcer can be heard on the on the body camera
stating that the man in the sweatpants was walking
back to the rear of the residence. (Id.) The ofﬁcers then
made a plan to enter the residence. (Id.) The ofﬁcers
conﬁrmed they had “less-lethal”—a “less-lethal shotgun.” (Id.) They decided to all approach the front of the
residence together and give the suspect verbal commands to come out. (Id.) At the time they decided this,
5

Plaintiff states this means he was free of warrants.

App. 46
they had visual of Mr. Cortesluna drinking a beer in
the kitchen. (Id.) The four ofﬁcers approached the front
door and Ofﬁcer Rivas-Villegas knocked loudly stating
“police department, come to the front door, Union City
police, come to the front door.” (Id.) Another ofﬁcer
shouted, “he’s coming and has a weapon” at which
point one ofﬁcer stated, “use less-lethal.”6 (Id.) Ofﬁcer
Rivas-Villegas ordered Mr. Cortesluna to “drop it” multiple times, which he did. (Id.) Ofﬁcer Rivas-Villegas
then ordered him to “come out, put your hands up, walk
out towards me.” (Id.) Ofﬁcer Rivas-Villegas ordered
him a second time to “walk towards me,” and as Mr.
Cortesluna did so Ofﬁcer Rivas-Villegas said, “keep
coming” and then “stop, get on your knees.” (Id.) As Ofﬁcer Rivas-Villegas was giving this latter order, Sergeant Kensic shouted “he has a knife in his left pocket,
knife in his pocket.” (Id.) Sergeant Kensic shouted
“don’t, don’t put your hands down” and “hands up.” (Id.)
As Sergeant Kensic shouted this last order, Mr. Cortesluna turned his head toward him, and simultaneously lowered his head and hands. (Id.) Ofﬁcer Leon
then shot Mr. Cortesluna once with less lethal and
nearly immediately thereafter a second time with the
less-lethal. (Id.) Ofﬁcer Leon hit Mr. Cortesluna in the
lower stomach and then in the left hip. (Dkt. No. 41-2
(Leon Depo.) at 61:4-19.)

6

The “weapon” was later identiﬁed as a metal tool. (Dkt. No.
55-1 (Cortesluna Depo.) at 31:18-24.) It is undisputed that Mr.
Cortesluna put it down when ordered prior to exiting the residence. (Dkt. No. 41-3 (Rivas-Villegas Depo.) at 40:21-24.)

App. 47
Following the shooting, the ofﬁcers all shouted for
Mr. Cortesluna to “get down” which he did. (Dkt. No.
39; Dkt. No. 48.) Mr. Cortesluna was moaning and crying in pain. (Id.) Sergeant Kensic shouted “stay there
ma’am, stay inside, go back in the room.” (Id.) Sergeant
Kensic also stated “left pocket, he’s got a knife.” (Id.)
Ofﬁcer Rivas-Villegas ordered Ofﬁcer Bellotti to “get
the house” and Sergeant Kensic stated that “there is a
female to the left inside.” (Id.) Ofﬁcer Rivas-Villegas
then held Mr. Cortesluna down while Ofﬁcer Leon
handcuffed him. (Dkt. No. 41-3 (Rivas-Villegas Depo)
at 53:6-19.)
B. Individual Accounts of the Incident
1. Mr. Cortesluna
Mr. Cortesluna was on his way back to his bedroom, which he had locked himself out of earlier in the
day, when he heard the police knocking at his door.
(Dkt. No. 53 (Cortesluna Decl.) at ¶¶ 4, 6.) He used one
hand to open the sliding door and in the other hand he
had a metal tool (a chisel bit). (Id. at ¶ 6; Dkt. No. 55-1
(Cortesluna Depo.) at 31:14-19.) When the ofﬁcers told
him to drop it, he did, and then he stepped outside with
his hands up. (Dkt. No. 55-1 at 31:22-25.) He heard ofﬁcers tell him to put his “hands up” but “I kind of put
down, because I was hearing something on the left
side. And that’s when they shot at me.” (Id. at 36:1013.) He lowered his hands because he was “confused by
all the orders and the shouting from the police.” (Dkt.
No. 53 at ¶ 6.) English is not his ﬁrst language. (Id.)

App. 48
He was 10-11 feet from the ofﬁcers when he was shot.
(Id. at ¶ 7.) After the ﬁrst shot to his lower belly/groin,
he turned to the left and his hands went to the area of
impact and then he was hit again in his right hip. (Id.
at ¶ 8.) As he was following orders to get to the ground,
he felt someone put their foot and weight on his back.
(Id. at ¶ 9.) It was very painful and then he was handcuffed and lifted by his handcuffed arms, which was
also very painful. (Id.)
2. Officer Leon
Once he got to the scene, Ofﬁcer Leon armed himself with the less-lethal shotgun and went to meet with
Lieutenant Graetz. (Dkt. No. 41-2 (Leon Depo.) at
32:21-23.) Ofﬁcer Leon shot his less-lethal shotgun after Sergeant Kensic said “don’t put your hands down”
because he “believed the subject was preparing to arm
himself, he was going for a weapon.” (Id. at 57:5-20.) At
that point Mr. Cortesluna was seven to ten feet from
Ofﬁcer Leon and Ofﬁcer Rivas-Villegas. (Id. at 57:2122, 58:4-8.) Ofﬁcer Leon felt that Mr. Cortesluna was a
risk to himself and the other ofﬁcers because he was
close enough to engage with the ofﬁcers if he armed
himself and he could reenter the residence. (Id. at 58:922.) Officer Leon did not feel it was feasible to warn
Mr. Cortesluna before he shot him because “it was immediate and [Mr. Cortesluna’s] response to Sergeant
Kensic’s instructions w[as] the opposite.” (Id. at 60-515.) Ofﬁcer Leon ﬁred a second shot “[b]ecause he was
still posing a threat. His hands were still in the vicinity

App. 49
of the knife, and he was turned away from me, so, I
couldn’t see what he was doing.” (Id. at 61:1-10.)
3. Officer Rivas-Villegas
Ofﬁcer Rivas-Villegas observed Mr. Cortesluna
with a heavy rod in his left hand when he came to the
sliding door. (Dkt. No. 41-3 (Rivas-Villegas Depo.) at
37:4-12.) He believed that Mr. Cortesluna was confronting them “[be]cause he came up to talk to [them]
with that rod in his hand.” (Id. at 38:15-20.) Mr. Cortesluna never made any verbal threats and complied
with the order to put the rod down. (Id. at 40:15-24.)
Mr. Cortesluna complied with all of Ofﬁcer Rivas-Villegas’s subsequent orders but did not comply with Sergeant Kensic’s order not to put his hands down. (Id. at
44:2-6.) Instead, Mr. Cortesluna “put his hands down
and started reaching for the knife.” (Id. at 44:5-9.) After Plaintiff was shot, Ofﬁcer Rivas-Villegas ordered
him to the ground, but he did not do so quickly and
Ofﬁcer Rivas-Villegas “didn’t know if he was formulating a plan in his head to grab for the knife or run back
inside the house” so he “pushed him down to the
ground. In order to stop him from escaping.” (Id. at
52:17-23.) Ofﬁcer Rivas-Villegas then “got over him so
[he] could grab his hands to prevent him from arming
himself.” (Id. at 53:6-8.) He used his foot to push him
down and his knee to hold him there. (Id. at 56:9-15.)
Officer Leon then handcuffed Mr. Cortesluna while
Ofﬁcer Rivas-Villegas “maintained” his hands. (Id. at
53:15-19.) Ofﬁcer Rivas-Villegas then lifted Mr. Cortesluna by the handcuffs because he “needed to quickly

App. 50
get him out of the doorway” since the house still had
not been cleared. (Id. at 57:1-11.)
PROCEDURAL BACKGROUND
Plaintiff ﬁled this action in September 2017, a little less than a year after the incident, against Ofﬁcer
Rivas-Villegas, Ofﬁcer Leon, Sergeant Kensic, and the
City of Union City (“the City”). (Dkt. No. 1.) He alleged
nine claims: (1) violation of his Fourth Amendment
rights under 42 U.S.C. § 1983 as to Ofﬁcers Rivas-Villegas and Leon; (2) municipal liability under 42 U.S.C.
§ 1983 as to the City; (3) negligence; (4) assault and
battery; (5) intentional inﬂiction of emotional distress;
(6) violation of California’s Civil Rights Action, Cal.
Civ. Code §§ 51, 51.7, 52.1(a), (b); (7) negligent inﬂiction
of emotional distress; (8) respondeat superior liability
as to the City; and (9) negligent hiring, training, and
supervision as to the City. (Dk. No. 1.) Before the Defendants answered, Plaintiff ﬁled a First Amended
Complaint omitting his negligent inﬂiction of emotional distress and respondeat superior claims. (Dkt.
No. 9.) Defendants thereafter appeared and answered
the First Amended Complaint. (Dkt. No. 15.)
Defendants ﬁled the now pending motion for summary judgment on November 15, 2018. (Dkt. No. 47.)
The motion is fully briefed and came before the Court
for a hearing on December 20, 2018.

App. 51
LEGAL STANDARD
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. Proc. 56(a). The Court must
draw “all reasonable inferences [and] resolve all factual conﬂicts in favor of the non-moving party.” Murphy v. Schneider Nat’l, Inc., 362 F.3d 1133, 1138 (9th
Cir. 2004). A fact is material if it “might affect the outcome of the suit under the governing law,” and an issue
is genuine if “a reasonable jury could return a verdict
for the non-moving party.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). There can be “no genuine
issue as to any material fact” when the moving party
shows “a complete failure of proof concerning an essential element of the nonmoving party’s case.” Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986).
When the party moving for summary judgment
does not bear the burden of proof at trial (usually the
defendant), the party has the burden of producing evidence negating an essential element of each claim on
which it seeks judgment or showing that the opposing
party cannot produce evidence sufﬁcient to satisfy her
burden of proof at trial. Nissan Fire & Mar. Ins. Co.,
Ltd. v. Fritz Cos., 210 F.3d 1099, 1102 (9th Cir. 2000).
Once the moving party meets that burden, the nonmoving party must show that a material factual dispute exists. California v. Campbell, 138 F.3d 772, 780
(9th Cir. 1998). When the party moving for summary
judgment would bear the burden of proof at trial (usually the plaintiff ), “it must come forward with evidence

App. 52
which would entitle it to a directed verdict if the evidence went uncontroverted at trial.” C.A.R. Transp.
Brokerage Co., Inc. v. Darden Rests., Inc., 213 F.3d 474,
480 (9th Cir. 2000) (internal quotation marks and citation omitted). “In such a case, the moving party has the
initial burden of establishing the absence of a genuine
issue of fact on each issue material to its case. Once the
moving party comes forward with sufﬁcient evidence,
the burden then moves to the opposing party, who must
present signiﬁcant probative evidence tending to support its claim or defense.” Id. (internal quotation marks
and citation omitted).
EVIDENTIARY OBJECTIONS
Defendants have raised a number of evidentiary
objections regarding the evidence Plaintiff has submitted in opposition to Defendants’ motion for summary
judgment, and Plaintiff has raised objections to Defendants’ reply evidence. Because the disputed evidence is not material to the Court’s decision, it is
unnecessary to resolve these objections.
DISCUSSION
Defendants move for summary judgment on each
of Plaintiff ’s claims, but a threshold question is
whether the ofﬁcers’ actions constituted excessive
force, and if so, whether the ofﬁcers are entitled to
qualiﬁed immunity.

App. 53
I.

Section 1983 Claims against the Officers

“Section 1983 does not create any substantive
rights, but is instead a vehicle by which plaintiffs can
bring federal constitutional and statutory challenges
to actions by state and local ofﬁcials.” Anderson v.
Warner, 451 F.3d 1063, 1067 (9th Cir. 2006). To prevail
on a Section 1983 claim, Plaintiff must show that the
alleged conduct both occurred “under color of state law”
and deprived Plaintiff of a constitutional or federal
statutory right. S. Cal. Gas Co. v. City of Santa Ana,
336 F.3d 885, 887 (9th Cir. 2003). There is no dispute
that Ofﬁcer Rivas-Villegas, Ofﬁcer Leon, Sergeant
Kensic were acting under color of law; thus, the only
question is whether they are entitled to summary judgment because there is no dispute of material fact as to
the use of force, or, even if there is, whether they are
entitled to qualiﬁed immunity. Plaintiff ’s excessive
force claim against each defendant is predicated on a
different basis. The excessive force claim as to Ofﬁcer
Leon is based on his use of the less-lethal shotgun. His
excessive force claim against Ofﬁcer Rivas-Villegas is
based on the handcufﬁng and moving of Plaintiff once
handcuffed. Finally, his claim against Sergeant Kensic
is based on a failure to intervene theory.
A. Fourth Amendment-Excessive
Claim as to Officer Leon

Force

Whether a defendant’s use of force was “reasonable” under the Fourth Amendment requires a careful
balancing of the nature and quality of the intrusion on

App. 54
the individual’s Fourth Amendment interests against
the countervailing government interests at stake.”
Graham v. Connor, 490 U.S. 386, 395 (1989). Thus, the
question is “whether the ofﬁcers’ actions [were] ‘objectively reasonable’ in light of the facts and circumstances confronting them, without regard to their
underlying intent or motivation.” Id. at 397. In making
that determination, courts consider “the relationship
between the need for the use of force and the amount
of force used; the extent of the plaintiff ’s injury; any
effort made by the ofﬁcer to temper or to limit the
amount of force; the severity of the security problem at
issue; the threat reasonably perceived by the ofﬁcer;
and whether the plaintiff was actively resisting.”
Kingsley v. Hendrickson, 135 S Ct. 2466, 2472 (2015)
(citing Graham, 490 U.S. at 296). The Kingsley factors
are not exclusive; instead, courts should consider all of
the circumstances it deems relevant. See Bryan v. MacPherson, 630 F.3d 805, 826 (9th Cir. 2010)
“The reasonableness of a particular use of force
must be judged from the perspective of a reasonable
ofﬁcer on the scene, rather than with the 20/20 vision
of hindsight.” Graham, 490 U.S. at 396. This determination is normally a question for the jury because it
requires “resolution of disputed questions of fact and
determinations of credibility, as well as on the drawing
of inferences.” Santos v. Gates, 287 F.3d 846, 852 (9th
Cir. 2002) (“[E]xcessive force claims typically boil down
to an evaluation of the various accounts of the same
events. Thus, the circumstances surrounding those
events may be critical to a jury’s determination of

App. 55
where the truth lie.”). Summary judgment may be appropriate, however, when the facts concerning an incident are largely undisputed. See Scott v. Henrich, 39
F.3d 912, 915 (9th Cir. 1994) (“[D]efendants can still
win on summary judgment if the district court concludes, after resolving all factual disputes in favor of
the plaintiff, that the ofﬁcer’s use of force was objectively reasonable under the circumstances.”).
Defendants contend that Ofﬁcer Leon’s use of the
less-lethal beanbag shotgun was reasonable as a matter of law given the totality of the undisputed circumstances: the ofﬁcers were responding to a request to
investigate a 911 call from a minor that reported that
she, her 15-year old sister, and mother were locked in
a room, the mother’s intoxicated boyfriend was trying
to hurt them and he had a chainsaw, and when Plaintiff approached the ofﬁcers he was observed with a
knife in his pocket and despite an order to raise his
hands, he lowered his hands toward the area of the
knife. Plaintiff for, his part, contends that a reasonable
jury could conclude that the use of force was unreasonable because he was confused by the ofﬁcers’ contradictory orders, English is not his ﬁrst language, he was
generally compliant with the ofﬁcers’ orders, he was
not aware that he had a knife, he was not reaching for
the knife, and he was given no warning before he was
shot.

App. 56
1. Nature and Quality of the Intrusion
The ﬁrst step is to “assess the severity of the intrusion on the individual’s Fourth Amendment rights
by evaluating the type and amount of force inﬂicted.”
Glenn v. Washington Cty., 673 F.3d 864, 871 (9th Cir.
2011) (internal citation and quotation marks omitted).
Here, Ofﬁcer Leon used a beanbag shotgun which is “a
twelve-gauge shotgun loaded with . . . ‘beanbag’
round[s],” which consist of “lead shot contained in a
cloth sack.” Deorle v. Rutherford, 272 F.3d 1272, 1277
(9th Cir. 2001). “It is intended to induce compliance by
causing sudden, debilitating, localized pain, similar to
a hard punch or baton strike. Although bean bag guns
are not designed to cause serious injury or death, a
bean bag gun is considered a ‘less-lethal’ weapon, as
opposed to a non-lethal weapon, because the bean bags
can cause serious injury or death if they hit a relatively
sensitive area of the body, such as [the] eyes, throat,
temple or groin.” Glenn, 673 F.3d at 871 (internal quotations marks omitted; alterations in original). “In
light of this weapon’s dangerous capabilities, [s]uch
force, though less than deadly, . . . is permissible only
when a strong governmental interest compels the employment of such force.” Id. at 872 (internal citation
and quotation marks omitted).
2. Government’s Interest at Stake
a) Severity of the Crime
“The character of the offense is often an important
consideration in determining whether the use of force

App. 57
was justiﬁed.” Deorle v. Rutherford, 272 F.3d 1272,
1280 (9th Cir. 2001).
Here, ofﬁcers responded to a dispatch telling the
ofﬁcers there was a 911 call from a minor saying that
she, her sister, and mother were locked in a bedroom,
her mother was holding the door, and her mother’s intoxicated boyfriend was trying hurt them and perhaps
saw the door open with a chainsaw. Three crimes were
thus alleged: California Penal Code § 236 (false imprisonment), California Penal Code 245(a)(1) (assault with
a deadly weapon), and California Penal Code 273a
(child endangerment). Plaintiff does not address
whether these are the appropriate crimes for Plaintiff ’s alleged conduct; instead, he insists that the whole
thing was a misunderstanding based on a “misperception the part of the teens.” (Dkt. No. 52 at 23:3.) However, the severity of the crime is judged from the
perspective of the ofﬁcer at the time of the incident—
not with the beneﬁt of hindsight. See Graham, 490 U.S.
at 396. The ofﬁcers understood they were responding
to a domestic violence call and “[w]hen ofﬁcers respond
to a domestic abuse call, they understand that violence
may be lurking and explode with little warning. Indeed, more ofﬁcers are killed or injured on domestic violence calls than on any other type of call”; thus, “[w]e
take very seriously the danger that domestic disputes
pose to law enforcement ofﬁcers, and we have no trouble concluding that a reasonable ofﬁcer arriving at the
[ ] residence reasonably could be concerned about his
or her safety.” Mattos v. Agarano, 661 F.3d 433, 450
(9th Cir. 2011) (internal citations and quotation marks

App. 58
omitted). A reasonable ofﬁcer responding to a domestic
violence call under the undisputed circumstances present here would have had a heightened concern about
the safety of himself and fellow ofﬁcers as well as the
safety of the woman and minors inside the residence.
b) Immediacy of the Threat to the Ofﬁcers or Others
“The most important factor under Graham is
whether the suspect posed an immediate threat to the
safety of the ofﬁcers or others.” Bryan v. MacPherson,
630 F.3d 805, 826 (9th Cir. 2010). In weighing this factor, “judges should be cautious about second-guessing
a police ofﬁcer’s assessment, made on the scene, of the
danger presented by a particular situation. With the
beneﬁt of hindsight and calm deliberation, the panel
majority concluded that it was unreasonable for petitioners to fear that violence was imminent” but the
reasonableness must be judged “from the perspective
of a reasonable ofﬁcer on the scene, rather than with
the 20/20 vision of hindsight.” Ryburn v. Huff, 565 U.S.
469, 477 (2012). “The calculus of reasonableness must
embody allowance for the fact that police ofﬁcers are
often forced to make split-second judgments—in circumstances that are tense, uncertain, and rapidly
evolving.” Graham, 490 U.S. at 396-97. “[A]an ofﬁcer’s
use of force must be objectively reasonable based on his
contemporaneous knowledge of the facts.” Deorle, 272
F.3d at 1281.
Defendants contend that a reasonable ofﬁcer in
their position would have perceived Plaintiff as a

App. 59
threat because (1) they were responding to a domestic
violence call of an intoxicated suspect with a chainsaw
and with a woman and minors locking themselves in a
bedroom trying to stay away from the suspect, (2)
Plaintiff had a knife in his left pocket, (3) in response
to a command to put his hands up he instead lowered
his hands toward the area of the knife, (4) at the time
this occurred he was in close proximity of the ofﬁcers,
and (5) Plaintiff thus could have engaged the ofﬁcers
who were 10-11 feet away if he had armed himself.
Plaintiff insists that drawing all inferences in his favor,
it was not reasonable for Ofﬁcer Leon to conclude that
he posed an immediate threat either to the residents
of the house or the ofﬁcers. In particular, Plaintiff notes
that on the home security video it is apparent that he
was not reaching for the knife, he was lowering his
hands to the front of his thighs, his ﬁngers were out
and not curled toward the knife, he lowered both hands
at the same time slowly and steadily, which is not consistent with someone reaching for a knife, and the
knife was blade up in his pocket at the time.
A reasonable trier of fact could not ﬁnd that many
of these facts alleged by Plaintiff would have been
known by Ofﬁcer Leon; namely, what exactly Plaintiff ’s hands were doing, that he was not reaching for
the knife, and that the knife blade was facing up. The
video establishes that it was dark and that the knife
was on the opposite side of Plaintiff ’s body away from
Ofﬁcer Leon. And Ofﬁcer Leon testiﬁed that he could
not see the knife, he heard Sergeant Kensic yell that
Plaintiff had a knife and command Plaintiff not to put

App. 60
his hands down, and that Plaintiff instead started lowering his hands. (Dkt. No. 41-2 (Leon Depo.) at 57:520.) Plaintiff does not identify any evidence that supports a reasonable inference that Ofﬁcer Leon knew
that Plaintiff was not going for his knife. Thus, a reasonable trier of fact would have to ﬁnd that Ofﬁcer
Leon reasonably believed that Plaintiff posed a threat
to the ofﬁcers when he moved his hand toward his
knife as opposed to away as ordered, especially given
that the ofﬁcers were responding to a domestic violence
call.
c) Actively Resisting or Evading Arrest
There is no dispute that Plaintiff complied with all
the ofﬁcers’ orders until the order to put his hands up
when Sergeant Kensic saw the knife. Plaintiff had previously come to the door, dropped the chisel when ordered by ofﬁcers, exited the home with his hands up,
and stopped moving toward the ofﬁcers when ordered.
Nor is there a dispute that when Plaintiff was ordered
to raise his hands, he did the opposite. Plaintiff explains, however, that this was because he was confused
by the order because Ofﬁcer Rivas-Villegas was also
giving him other orders to get on his knees and English
is not his ﬁrst language and further that active resistance cannot be based simply on a failure to follow
orders. See Nelson v. City of Davis, 685 F.3d 867, 882
(9th Cir. 2012) (“active resistance is not to be found
simply because of a failure to comply with the full extent of an ofﬁcer’s orders” and noting that use of intermediate force is not “where an individual’s resistance

App. 61
was [not] particularly bellicose”). Here, however, under
the undisputed facts, Plaintiff ’s resistance was not his
failure to comply with orders, but his act of doing the
opposite and moving his hands in the direction of a
weapon. That he did not do so intentionally is not material as there was no way for a reasonable ofﬁcer to
know whether Plaintiff intentionally or accidentally
moved his hands down when told to put them up; all a
reasonable ofﬁcer would know is that he moved his
hand toward the knife.
d) The Absence of a Warning
The absence of a warning is also considered when
weighing the reasonableness of the use of force. Ofﬁcers should “provide warnings, where feasible, even
when the force used is less than deadly.” Deorle, 272
F.3d at 1284 (collecting cases re: same). Warnings are
not required whenever less than deadly force is employed, but where feasible they should be given and
“the giving of a warning or the failure to do so is a factor to be considered in applying the Graham balancing
test.” Id. It is undisputed that Officer Leon did not
give a warning prior to shooting Plaintiff with the lesslethal shotgun; however, only seconds elapsed between
Sergeant Kensic noting that there was a knife, the order to put his hands up, and Plaintiff lowering his
hands. Further, as ﬁve ofﬁcers had guns “pointed at
[Plaintiff ] when he was instructed [to raise his hands];
the consequences of a failure to comply with the command should have been clear.” Hill v. Bay Area Rapid
Transit Dist., No. C-12-00372 DMR, 2013 WL 5272957,

App. 62
at *6 (N.D. Cal. Sept. 18, 2013) (collecting cases re: nonverbal warnings). Under the undisputed facts, a reasonable trier of fact could not conclude that there was
time for a warning as an ofﬁcer in Ofﬁcer Leon’s position would have perceived an imminent threat to his
safety and that of his fellow ofﬁcers and the residents
in the home.
e) Availability of Alternative Means
“Ofﬁcers need not avail themselves of the least intrusive means of responding to an exigent situation;
they need only act within that range of conduct we
identify as reasonable. However, police are required to
consider [w]hat other tactics if any were available, and
if there were clear, reasonable and less intrusive alternatives to the force employed, that militate[s] against
ﬁnding [the] use of force reasonable.” Glenn, 673 F.3d
at 876 (internal citation and quotation marks omitted;
alterations in original). Plaintiff argues that ofﬁcers
should have considered using Spanish commands or
repositioning themselves to a safe distance once they
observed the knife. However, Plaintiff had responded
to the ﬁrst set of commands when given in English, and
Plaintiff does not identify any evidence that would
support an inference that the ofﬁcers had reason to believe he did not understand English. As for Plaintiff ’s
repositioning argument, it is undisputed that the ofﬁcers were in an enclosed patio with Plaintiff with their
backs to the wall at the time of the incident. If Ofﬁcer
Leon believed that Plaintiff was going for the knife

App. 63
when he lowered his hands, there was no time for the
ofﬁcers to reposition.
3. Balancing the Interests
To determine whether Ofﬁcer Leon’s use of the
less-lethal shotgun was objectively reasonable as a
matter of law, the Court must determine “whether the
degree of force used was warranted by the governmental interests at stake.” Deorle, 272 F.3d at 1282. “The
calculus of reasonableness must embody allowance for
the fact that police ofﬁcers are often forced to make
split-second judgments—in circumstances that are
tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular situation.” See Wilkinson v. Torres, 610 F.3d 546, 550 (9th
Cir. 2010) (quoting Graham, 490 U.S. at 396-97).
While the facts underlying the incident are generally not in dispute, Plaintiff contends that drawing the
following inferences in his favor a reasonable jury
could conclude that the use of force was not objectively
reasonable:
•

the 911 call might not have been credible
given that the Ofﬁcers observed Plaintiff
calmly in the kitchen and the ofﬁcers themselves questioned the credibility of the call
given the statement that they were concerned
about swatting;

•

Plaintiff appeared calm;

App. 64
•

Plaintiff complied with all orders up until the
order from Sergeant Kensic that he put his
hands up;

•

Plaintiff was confused by the conﬂicting orders;

•

Sergeant Kensic’s order included a double
negative: “Don’t don’t put your hands down”;

•

English is not Plaintiff ’s ﬁrst language;

•

no warning was given before Plaintiff was
shot;

•

Plaintiff was lowering his hands, but not
reaching for the knife that he was unaware
was in his pocket;

•

Plaintiff ’s failure to raise his hands following
the ﬁrst shot was a result of his involuntary
reaction—holding the injury area.

The Court disagrees. Plaintiff ’s inferences are almost
all based on hindsight and not what facts were known
to Ofﬁcer Leon at the time he deployed the less-lethal
shotgun. Ofﬁcer Leon did not know that English was
not Plaintiff ’s ﬁrst language or that Plaintiff was confused by the orders.7 Ofﬁcer Leon knew that he was
7

Plaintiff ’s argument that Sergeant Kensic’s use of a double
negative—“Don’t don’t put your hands down”—made the order
doubly confusing is specious as among other things it ignores that
Sergeant Kensic’s undisputed ﬁnal command before less-lethal
was deployed was “hands up.” Further, a requirement that ofﬁcers cannot use force unless their commands are delivered in perfect grammar in volatile situations is neither supported by the
law or common sense.

App. 65
responding to a domestic violence call of an intoxicated
man with a chainsaw threatening to hurt a woman and
two minors, that one of his fellow ofﬁcers saw a knife
in the suspect’s pocket when he and his fellow ofﬁcers
were within 10-11 feet of the suspect with their back
to a wall, and that when the suspect was given an order
to put his hands up he did the opposite lowering his
hands in the direction of the knife. Under these circumstances, a reasonable ofﬁcer in Ofﬁcer Leon’s shoes
would have concluded that there was an imminent
threat to his safety and that of his fellow ofﬁcers. A use
of intermediate, less-lethal force under these circumstances was objectively reasonable. Smith, 394 F.3d at
704. Likewise, that Ofﬁcer Leon deployed a second
less-lethal shotgun blast less than a second after the
ﬁrst when Plaintiff still failed to raise his hands was
not objectively unreasonable: the knife was on the opposite side of Plaintiff ’s body from Ofﬁcer Leon and
thus he could not have perceived during the second between deployments that Plaintiff was reaching for his
stomach and not the knife. Thus, the deployment of the
second shotgun blast was likewise objectively reasonable.
B. Officer Leon is Entitled to Qualified
Immunity
Even if the Court were to conclude a reasonable
jury could ﬁnd that Ofﬁcer Leon’s use of force was not
objectively reasonable, Ofﬁcer Leon would nonetheless
be entitled to qualiﬁed immunity. Individual ofﬁcers
are protected “from liability for civil damages insofar

App. 66
as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known.” Pearson v. Callahan, 555
U.S. 223, 231 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)). “In determining whether an ofﬁcer is entitled to qualiﬁed immunity, we consider (1)
whether there has been a violation of a constitutional
right; and (2) whether that right was clearly established at the time of the ofﬁcer’s alleged misconduct.”
Lal v. California, 746 F.3d 1112, 1116 (9th Cir. 2014).
“[C]learly established law [is not to be deﬁned] at
a high level of generality.” Ashcroft v. al-Kidd, 563 U.S.
731, 742 (2011). Instead, in deciding whether a constitutional right was clearly established at the time of
the alleged violation, a court must ask “whether the
violative nature of particular conduct is clearly established.” Id. (emphasis added). “The plaintiff bears
the burden to show that the contours of the right
were clearly established.” Clairmont v. Sound Mental
Health, 632 F.3d 1091, 1109 (9th Cir. 2011). “This inquiry, it is vital to note, must be undertaken in light of
the speciﬁc context of the case, not as a broad general
proposition.” Saucier v. Katz, 533 U.S. 194, 201 (2001),
overruled on other grounds by Pearson, 555 U.S. at 236.
“Although this Court’s caselaw does not require a case
directly on point for a right to be clearly established,
existing precedent must have placed the statutory or
constitutional question beyond debate.” Kisela v.
Hughes, 138 S. Ct. 1148, 1152 (2018). Qualiﬁed “immunity protects all but the plainly incompetent or
those who knowingly violate the law.” Id.

App. 67
“[S]peciﬁcity is especially important in the Fourth
Amendment context, where the Court has recognized
that it is sometimes difﬁcult for an ofﬁcer to determine
how the relevant legal doctrine, here excessive force,
will apply to the factual situation the ofﬁcer confronts.”
Mullenix v. Luna, 577 U.S. ___, ___, 136 S.Ct. 305, 308
(2015) (internal quotation marks omitted). “Use of excessive force is an area of the law in which the result
depends very much on the facts of each case, and thus
police ofﬁcers are entitled to qualiﬁed immunity unless
existing precedent squarely governs the speciﬁc facts
at issue.” Kisela, 138 S. Ct. at 1153 (internal citation
and quotation marks omitted). In making this determination, courts consider the state of the law at the
time of the alleged violation and the information that
the ofﬁcial possessed to determine whether a reasonable official in a particular factual situation should
have been on notice that his or her conduct was illegal.
Inouye v. Kemna, 504 F.3d 705, 712 (9th Cir. 2007).
The question here then is whether at the time of
this incident in November 2016 the law was clearly
established that ofﬁcers could not use non-lethal force
under the circumstances after drawing all reasonable
inferences in Plaintiff ’s favor:
•

ofﬁcers respond to a 911 call that two minors
and their mother have locked themselves in a
bedroom because the mother’s intoxicated
boyfriend is trying to hurt them and has a
chainsaw,

•

ofﬁcers are told the reporting minor is crying,
that the mother is holding the door, and that

App. 68
the 911 employee can hear what sounds like a
chainsaw,
•

ofﬁcers confront Plaintiff who complies with
orders, but when one ofﬁcer observes a knife
in Plaintiff ’s pocket and orders him to put his
hands up, Plaintiff instead lowers his hands
in the direction of the knife and the ofﬁcer and
his fellow ofﬁcers are in a conﬁned space 1011 feet away from Plaintiff.

Plaintiff insists that “[i]t has long been established
that a failure to comply fully or immediately with an
ofﬁcers’ orders, especially where there is no immediate
threat, neither rises to the level of active resistance nor
justiﬁes the application of force” and cites a string of
cases in support of this position. (Dkt. No. 52 at 27:2325.) There are two primary defects with Plaintiff ’s argument. First, it is based on the premise that there was
no immediate threat and no active resistance, but as
discussed above, the undisputed facts are that Plaintiff
had a knife in his pocket and when ordered to put his
hands up he, instead, lowered his hands toward the
knife. “[W]here a suspect threatens an ofﬁcer with a
weapon such as a gun or a knife, the ofﬁcer is justiﬁed
in using deadly force.” Smith, 394 F.3d at 704. Indeed,
in Smith, on which Plaintiff relies, the Ninth Circuit
contrasted the facts there—an unarmed individual
who was pepper sprayed and attacked by a police canine when he disobeyed ofﬁcers orders to turn around
and put his hands on his head—with facts which would
justify the use of deadly force such as where a suspect
threatens an ofﬁcer with a knife. Id. at 694, 704.

App. 69
Second, none of the cases upon which Plaintiff relies—Nelson v. City of Davis, 685 F.3d 867, 879 (9th Cir.
2012); Smith, 394 F.3d 689; Glenn v. Washington Cty.,
673 F.3d 864, 871 (9th Cir. 2011); Deorle v. Rutherford,
272 F.3d 1272, 1279 (9th Cir. 2001); Hesterberg v.
United States, 71 F. Supp. 3d 1018, 1032 (N.D. Cal.
2014)—are analogous let alone “existing precedent
[that] ‘squarely governs’ the speciﬁc facts at issue.”
Kisela, 138 S. Ct. at 1153. In Nelson, the Ninth Circuit
held that “a reasonable ofﬁcer would have been on notice that both the ﬁring of a projectile that risked causing serious harm, in the direction of non-threatening
individuals who had committed at most minor misdemeanors, and the release of pepper spray in the area
occupied by those individuals, would constitute unreasonable force in violation of the Fourth Amendment.”
685 F.3d at 886; see also Hesterberg, 71 F. Supp. 3d at
1036 (holding that it was objectively unreasonable for
a park ranger to use a taser on “a ﬂeeing, nonviolent,
non-serious misdemeanant, who posed no threat to
[the ofﬁcer] or the public, who was not sufﬁciently
warned prior to the tasing, and who [the ofﬁcer] knew
had an undeﬁned heart condition”). Here, in contrast,
the ofﬁcers were responding to domestic violence call
that reported the attempted use of lethal force on a
mother and her children—not a minor misdemeanor or
infraction—and Plaintiff lowered his hands towards a
weapon—facts very different from Nelson and Hesterberg.
The Ninth Circuit’s decision in Glenn likewise
fails to establish that Ofﬁcer Leon’s use of less-lethal

App. 70
force violated clearly established law. In Glenn, ofﬁcers
fatally shot a suicidal and intoxicated man in his own
driveway after he did not comply with orders to drop a
pocketknife which he held to his own neck. 673 F.3d at
867-69. The ofﬁcers shot him six times with a beanbag
shotgun and then with their semiautomatic weapons.
Id. at 869. The Ninth Circuit reversed the district
court’s grant of summary judgment in favor of the defendant police ofﬁcers. Glenn is readily distinguishable
from the facts here as the man there was “suicidal on
the night in question and the threats of violence known
to the responding ofﬁcers focused on harming himself
rather than other people,” he did not threaten the ofﬁcers, and only held the knife to his own neck. Id. at
873. Here, the undisputed facts are that ofﬁcers had
been told that Plaintiff had been using a chainsaw and
was threatening to hurt a woman and two children
who had locked themselves in a bedroom with the
mother holding the door to keep the boyfriend out and
when Plaintiff was told to put his hands up after the
knife was spotted in his pocket, he lowered his hands
in the direction of the knife; thus, in contrast to Glenn
“there was [signiﬁcant] reason to believe [Plaintiff ]
could have done [ ] immediate harm.” Id. at 874.
In Deorle, an ofﬁcer shot the plaintiff, an emotionally disturbed man, in the face with a beanbag shogun
because he “was walking at a ‘steady gait’ in his direction” although the plaintiff “was unarmed, had not attacked or even touched anyone, had generally obeyed
the instructions given him by various police ofﬁcers,
and had not committed any serious offense.” 272 F.3d

App. 71
at 1275. The Ninth Circuit reversed the district court’s
grant of summary judgment in the ofﬁcer’s favor, holding that such use of force was excessive and that the
ofﬁcer was not entitled to qualiﬁed immunity because
“[e]very police ofﬁcer should know that it is objectively
unreasonable to shoot—even with lead shot wrapped
in a cloth case—an unarmed man who: has committed
no serious offense, is mentally or emotionally disturbed, has been given no warning of the imminent use
of such a signiﬁcant degree of force, poses no risk of
ﬂight, and presents no objectively reasonable threat to
the safety of the ofﬁcer or other individuals.” Id. at
1285. While Deorle is arguably more analogous than
the other cases upon which Plaintiff relies, the Supreme Court has twice cautioned courts in the Ninth
Circuit from “read[ing] its decision in [Deorle] too
broadly in deciding whether a new set of facts is governed by clearly established law.” Kisela, 138 S. Ct. at
1154; City & Cty. of San Francisco, Calif. v. Sheehan,
135 S. Ct. 1765, 1776 (2015) (“Whatever the merits of
the decision in Deorle, the differences between that
case and the case before us leap from the page.”).
In contrast to the cases relied upon by Plaintiff,
recent Ninth Circuit and Supreme Court case law
compels the conclusion that Officer Leon is entitled
to qualiﬁed immunity. In S.B. v. Cty. of San Diego, 864
F.3d 1010, 1011 (9th Cir. 2017), the Ninth Circuit held
that ofﬁcers were entitled to qualiﬁed immunity after
they fatally shot a man with knives in his pocket. The
ofﬁcers were responding to a 911 call of an intoxicated
and mentally unstable individual (Mr. Brown) who had

App. 72
“been acting aggressively.” Id. When the ofﬁcers encountered Mr. Brown in his home, he had knives in his
pocket, ignored orders to put his hands up, and instead,
reached for a knife at which point the ofﬁcers opened
ﬁre. Id. at 1011-13. The Ninth Circuit held that Glenn
was inapposite because there the decedent held the
knife to his own neck, whereas Mr. Brown “grabb[ed]
the knife from his pocket despite orders to place his
hands on his head.” Id. at 1016. The court also distinguished Deorle because in Deorle “that emotionally disturbed individual was unarmed at the time an ofﬁcer
shot him in the face with a beanbag gun.” Id. at n.5.
The Ninth Circuit concluded that the ofﬁcers use of
deadly force under the circumstances did not violate
clearly established law.
More recently, the Supreme Court in Kisela reversed the Ninth Circuit’s denial of qualiﬁed immunity
to an ofﬁcer who shot a woman armed with a kitchen
knife. Kisela, 138 S. Ct. at 1153. The ofﬁcer was responding to a 911 call from a bystander that a
woman—later identiﬁed as the plaintiff—had been
acting erratically and “was seen hacking a tree with a
large kitchen knife.” Id. When the police arrived, they
saw the plaintiff still armed with a kitchen knife walking towards another woman—later identiﬁed as her
roommate. Id. at 1151. The ofﬁcer was separated from
the women by a locked chain-link fence. Id. The plaintiff appeared calm but ignored commands to drop the
knife. Id. The ofﬁcer opened ﬁre, shooting her four
times, and she sustained non-life threatening injuries.
Id. at 1151. Less than a minute transpired between

App. 73
when the ofﬁcer saw the plaintiff and when the shots
were ﬁred. Id.
Here, as in Kisela, the plaintiff had a knife and ignored the ofﬁcer’s commands. Further, unlike Kisela,
the ofﬁcers here were responding to a report of domestic violence with minors involved, and unlike Kisela,
the plaintiff here did not just ignore the ofﬁcer’s commands—he did the opposite. Under these circumstances, Kisela requires the Court to conclude that
Ofﬁcer Leon is entitled to qualiﬁed immunity. To put it
another way, the caselaw cited by Plaintiff does not
place the constitutionally beyond debate.” Kisela v.
Hughes, 138 S. Ct. 1148, 1152 (2018).
C. Fourth Amendment-Excessive Force
Claim as to Officer Rivas-Villegas
Plaintiff alleges that Ofﬁcer Rivas-Villegas violated his Fourth Amendment rights during the handcufﬁng and when he was moved via his handcuffs
thereafter. In particular, Plaintiff attests that after he
was shot and as he was ordered to the ground “someone put their foot and their weight on my back” and he
“felt tremendous pain from that and then again while
being lifted and moved by my arms handcuffed behind
my back.” (Dkt. No. 53, Cortesluna Decl. at ¶ 9; see also
Dkt. No. 55-1, Cortesluna Depo. at 40:8-41:3.) Plaintiff
contends that the knife was away from his body so
there was no reason for this level of force citing to the
security camera footage, but the Court’s review of the
footage establishes that it was not until the ofﬁcers

App. 74
were in the process of handcufﬁng Plaintiff that one of
the ofﬁcers removed the knife from his pocket and
tossed it away. (Dkt. No. 53 at Ex. 1 at 14:59.) Further,
the entire incident—from the moment Ofﬁcer RivasVillegas secured Plaintiff until he was moved out of the
way—lasted less than 30 seconds. (Id. at 14:46-15:11.)
Generally, handcufﬁng a suspect to effect an arrest
is standard practice. See Malek v. Green, No. 17-CV00263-BLF, 2017 WL 4284117, at *18 (N.D. Cal. Sept.
27, 2017) (collecting cases re: the same). In Meredith v.
Erath, 342 F.3d 1057, 1061 (9th Cir. 2003), the Ninth
Circuit held that a reasonable jury could conclude that
it was excessive force where an ofﬁcer investigating a
non-violent tax invasion offence grabbed the plaintiff
by the arms, forcibly threw her to the ground, and,
handcuffed her while twisting her arms although she
did not make any attempt to ﬂee nor was she a safety
risk. Here, in contrast, Ofﬁcer Rivas-Villegas was attempting to secure an armed suspect after responding
to a domestic violence call. While Plaintiff alleges that
the handcufﬁng and movement were painful, he does
not allege that Ofﬁcer Rivas-Villegas twisted his arms
or prolonged the handcufﬁng beyond that reasonably
necessary to restrain him.8 Nor does he allege that he
8

Plaintiff ’s reliance on caselaw regarding “abusive application of handcuffs,” “overly tight handcuffing,” and “lifting an
individual by a handcuff ” as “spiteful excessive force” is unpersuasive. Each of the cases Plaintiff relies upon involve factual scenarios far aﬁeld from that here. See, e.g, Blankenhorn v. City of
Orange, 485 F.3d 463, 469 (9th Cir. 2007) (after the plaintiff refused to kneel to be handcuffed and used profanity, the ofﬁcers
tackled the plaintiff and struggled with him for several seconds

App. 75
was injured as a result of his handcufﬁng and movement. Compare Crump v. Bay Area Rapid Transit Dist.,
No. 17-CV-02259-JCS, 2018 WL 4927114, at *12 (N.D.
Cal. Oct. 10, 2018) (holding that plaintiff ’s claim that
the handcufﬁng resulted in a torn rotator cuff presented a dispute of fact that precluded summary judgment on the excessive force claim but ﬁnding that the
ofﬁcers were entitled to qualiﬁed immunity); with Wall
v. Cty. of Orange, 364 F.3d 1107, 1110 (9th Cir. 2004)
(denying qualiﬁed immunity where the force used was
excessive under the circumstances and the plaintiff
suffered nerve damage as a result of the handcufﬁng).
Plaintiff cites no authority for the proposition that under the facts here—where ofﬁcers encounter and need
during which time the plaintiff was punched in the head and
body); Drummond ex rel. Drummond v. City of Anaheim, 343 F.3d
1052, 1054 (9th Cir. 2003) (after calling an ambulance to take an
unarmed, hallucinating individual to a medical facility on a 5150
hold, ofﬁcers decided to take him into custody, and in doing so,
one ofﬁcer knocked him to the ground and handcuffed him while
another ofﬁcer put his weight on the plaintiff ’s back); Palmer v.
Sanderson, 9 F.3d 1433, 1434-35 (9th Cir. 1993) (plaintiff was
stopped on suspicion of driving while intoxicated and after he became tired of standing in the rain, he returned to his vehicle at
which point the ofﬁcer pulled him “out of his car, pushed him
against it, frisked him, handcuffed him, and pushed him into the
back seat of the patrol car with such force that [plaintiff ] fell over
sideways” and placed the handcuffs “tight enough to cause pain
and discoloration to his wrists”); Hansen v. Black, 885 F.2d 642,
645 (9th Cir. 1989) (the plaintiff stated “that the handcuffs were
put on in an abusive manner and that she was physically injured
in the arrest”); Wall v. Cty. of Orange, 364 F.3d 1107, 1109 (9th
Cir. 2004) (the plaintiff ’s hands were handcuffed “extremely
tight” behind his back, the ofﬁcer picked the plaintiff up by his
handcuffed arms and threw him “upside down” and head ﬁrst into
the patrol car).

App. 76
to effectuate an arrest on an armed suspect and secure
a premise—the level of force used was excessive.
Drawing all inferences in Plaintiff ’s favor, the
Court concludes that a reasonable jury could not conclude that the level of force used here was excessive.
Even if this were not the case, Ofﬁcer Rivas-Villegas
would be entitled to qualiﬁed immunity for any such
use of force because while the Ninth Circuit has held
that overly-tight handcufﬁng can constitute a Fourth
Amendment violation, see LaLonde v. County of Riverside, 204 F.3d 947, 960 (9th Cir. 2000), Plaintiff ’s complaint here is not about overly tight handcufﬁng, but
rather, about the amount of pressure used to restrain
him and the fact that he was moved via his handcuffed
hands, but Plaintiff has not “identif[ied] a case where
an ofﬁcer acting under similar circumstances as [defendants] was held to have violated the Fourth Amendment.” White v. Pauly, 137 S. Ct. 548, 552 (2017).
D. Fourth Amendment-Failure to Intervene
as to Sergeant Kensic
Ofﬁcers may be held liable under Section 1983
when their fellow ofﬁcers use excessive force if they
have an “opportunity to intercede” but fail to do so.
Cunningham v. Gates, 229 F.3d 1271, 1289-90 (9th Cir.
2000), as amended (Oct. 31, 2000). Here, Plaintiff contends that Sergeant Kensic, who was present, but did
not use any force against Plaintiff is liable because he
failed to “intercede when Ofﬁcer Leon announced,
while Mr. Cortesluna was still in the house, that he was

App. 77
going to ‘hit him with less lethal,’ did not interceded
when Ofﬁcer Leon did ‘hit him with less lethal,’ not
when Officer Leon and Rivas stomped and stood on
Mr. Cortesluna and lifted him by the handcuffs.”9 (Dkt.
No. 52 at 15:15-18.) Plaintiff, however, has presented
no evidence that Sergeant Kensic knew that Ofﬁcer
Leon was going to deploy less lethal—as opposed to
knowing that he had less lethal—and the decision to
deploy less lethal was a split section decision when
Plaintiff lowered his hands towards the knife after
being given the order to put his hands up. Under these
circumstances, even drawing all inferences in Plaintiff ’s favor, Sergeant Kensic had no “realistic opportunity” to intercede under these circumstances. See
Cunningham, 229 F.3d at 1290 (ﬁnding that the nonshooting ofﬁcers who were present at the shootouts
had no “realistic opportunity” to intercede and thus
could not be liable for failing to intervene to prevent
the shooting). Further, or more fundamentally, because
9

Defendants construe Plaintiff ’s argument as including a
claim based on a theory of supervisory liability. A supervisor may
be held liable under Section 1983 for “1) their own culpable action
or inaction in the training, supervision, or control of subordinates;
2) their acquiescence in the constitutional deprivation of which a
complaint is made; or 3) for conduct that showed a reckless or
callous indifference to the rights of others.” Edgerly v. City and
County of San Francisco, 599 F.3d 946, 961 (9th Cir. 2010) (internal quotations and citations omitted). However, as Defendants
note, Plaintiff did not plead a claim for supervisory liability and
cannot inject one now in opposing summary judgment. See
Trishan Air, Inc. v. Fed. Ins. Co., 635 F.3d 422, 435 (9th Cir.
2011). Thus, to the extent that Plaintiff ’s claim as to Sergeant
Kensic is predicated on a supervisory liability theory, the Court
declines to consider it.

App. 78
the Court concludes that Ofﬁcer Rivas-Villegas did not
use excessive force in handcufﬁng and moving Plaintiff, Sergeant Kensic cannot be liable for failing to intervene to stop the handcufﬁng or movement.
***
Accordingly, the Court concludes that even if a reasonable jury could conclude that Ofﬁcer Leon’s use of
the less-lethal shotgun here constituted excessive
force, he is entitled to qualiﬁed immunity. Likewise,
even if a reasonable jury could conclude that Ofﬁcer
Rivas-Villegas used excessive force in handcufﬁng
Plaintiff and moving him—which the Court does not
believe it could—he too would be entitled to qualiﬁed
immunity for any such use of force. Finally, no reasonable jury could conclude that Sergeant Kensic had a
realistic opportunity to intervene to stop the use of
force here were a jury to conclude that the use of force
here was unreasonable. Summary judgment will be
granted in Ofﬁcer Leon, Ofﬁcer Rivas-Villegas, and
Sergeant Kensic’s favor on the Section 1983 claim.
II.

Section 1983 Claim against the City

Because the Court grants summary judgment in
the ofﬁcers’ favor on the Section 1983 claim, Plaintiff ’s
Monell claim against the City is moot as it is predicated on a constitutional violation and this Court concludes that a reasonable trier of fact could not ﬁnd one.
See Forrester v. City of San Diego, 25 F.3d 804, 808 (9th
Cir. 1994).

App. 79
III. State Law Claims
Because the Court grants summary judgment on
the federal claims in Defendants’ favor, the Court declines to exercise supplemental jurisdiction of the state
law claims and instead dismisses them without prejudice. See United Mine Workers of America v. Gibbs, 383
U.S. 715, 726 (1966) (“Certainly, if the federal claims
are dismissed before trial, even though not insubstantial in a jurisdictional sense, the state claims should be
dismissed as well.”). “[S]tate courts routinely handle
assault, battery, and negligence claims against police
ofﬁcers, and the similarity between the analyses for
these state law claims and federal claims does not
mean that federal courts can or should exercise jurisdiction over these matters.” Martinez v. City & Cty. of
San Francisco, No. C-13-04197 DMR, 2014 WL
7387809, at *3 (N.D. Cal. Dec. 29, 2014) (also noting
that many courts in this district have remanded or dismissed state court tort claims against ofﬁcers when the
federal claims have been resolved).
CONCLUSION
For the reasons stated above, the Court GRANTS
summary judgment in Defendants’ favor on the federal
claims and dismisses the state law claims without prejudice.
This Order disposes of Docket No. 47.
IT IS SO ORDERED.

App. 80
Dated: December 21, 2018
/s/ Jacqueline Scott Corley
JACQUELINE SCOTT CORLEY
United States Magistrate Judge

App. 81
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
RAMON CORTESLUNA,
Plaintiff-Appellant,
v.
MANUEL LEON; et al.,
Defendants-Appellees.

No. 19-15105
D.C. No.
3:17-cv-05133-JSC
Northern District
of California,
San Francisco
ORDER
(Filed Dec. 3, 2020)

Before: GILMAN,* GRABER, and COLLINS, Circuit
Judges.
Judges Graber and Gilman have voted to deny
Appellees’ petition for panel rehearing, and Judge
Collins has voted to grant the petition for panel rehearing. Judge Graber has voted to deny the petition for
rehearing en banc and Judge Gilman has so recommended. Judge Collins has voted to grant the petition
for rehearing en banc.
The full court has been advised of Appellees’ petition for rehearing en banc, and no judge of the court
has requested a vote on it.

* The Honorable Ronald Lee Gilman, United States Circuit
Judge for the U.S. Court of Appeals for the Sixth Circuit, sitting
by designation.

App. 82
Appellees’ petition for panel rehearing and rehearing en banc, Docket No. 53, is DENIED.

